<html>
<title> - [H.A.S.C. No. 113-118] FISCAL YEAR 2015 OVERSEAS CONTINGENCY OPERATIONS BUDGET REQUEST</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 113-118]

                       FISCAL YEAR 2015 OVERSEAS

                         CONTINGENCY OPERATIONS

                             BUDGET REQUEST

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 16, 2014


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 



                                ____________
                                
                                
                                
                        U.S. GOVERNMENT PUBLISHING OFFICE
89-511                      WASHINGTON : 2015                        
____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2443544b64475157504c4148540a474b490a">[email&#160;protected]</a>  
        
        


                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                DAVID LOEBSACK, Iowa
BILL SHUSTER, Pennsylvania           NIKI TSONGAS, Massachusetts
K. MICHAEL CONAWAY, Texas            JOHN GARAMENDI, California
DOUG LAMBORN, Colorado               HENRY C. ``HANK'' JOHNSON, Jr., 
ROBERT J. WITTMAN, Virginia              Georgia
DUNCAN HUNTER, California            COLLEEN W. HANABUSA, Hawaii
JOHN FLEMING, Louisiana              JACKIE SPEIER, California
MIKE COFFMAN, Colorado               RON BARBER, Arizona
E. SCOTT RIGELL, Virginia            ANDRE CARSON, Indiana
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             DANIEL B. MAFFEI, New York
JOSEPH J. HECK, Nevada               DEREK KILMER, Washington
JON RUNYAN, New Jersey               JOAQUIN CASTRO, Texas
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
STEVEN M. PALAZZO, Mississippi       SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California                TULSI GABBARD, Hawaii
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
                Jack Schuler, Professional Staff Member
                        Spencer Johnson, Counsel
                           Aaron Falk, Clerk
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Wednesday, July 16, 2014, Fiscal Year 2015 Overseas Contingency 
  Operations Budget Request......................................     1

Appendix:

Wednesday, July 16, 2014.........................................    41
                              ----------                              

                        WEDNESDAY, JULY 16, 2014
    FISCAL YEAR 2015 OVERSEAS CONTINGENCY OPERATIONS BUDGET REQUEST
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Work, Hon. Robert O., Deputy Secretary of Defense, U.S. 
  Department of Defense; Winnefeld, ADM James A. ``Sandy,'' Jr., 
  USN, Vice Chairman, Joint Chiefs of Staff, U.S. Department of 
  Defense; and Michael J. McCord, Under Secretary of Defense 
  (Comptroller), U.S. Department of Defense......................     4

                                APPENDIX

Prepared Statements:

    McKeon, Hon. Howard P. ``Buck''..............................    45
    Smith, Hon. Adam.............................................    46
    Work, Hon. Robert O., joint with ADM James A. ``Sandy'' 
      Winnefeld, Jr..............................................    48

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Coffman..................................................    59
    Mr. Kilmer...................................................    60
    Mr. Shuster..................................................    58
    Ms. Tsongas..................................................    57
    FISCAL YEAR 2015 OVERSEAS CONTINGENCY OPERATIONS BUDGET REQUEST

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, July 16, 2014.
    The committee met, pursuant to call, at 10:19 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. I would like to welcome our witnesses to 
today's hearing on the Department of Defense's Fiscal Year 2015 
Overseas Contingency Operations Budget Request. We appreciate 
your flexibility this morning, as we dispense with other 
legislative matters.
    Joining us today are Mr. Bob Work, Deputy Secretary of 
Defense; Admiral Sandy Winnefeld, Vice Chairman of the Joint 
Chiefs of Staff; Mr. Michael McCord, Under Secretary of 
Defense, Comptroller. This is the first time Mr. Work and Mr. 
McCord are appearing before the full committee in their new 
positions.
    Welcome. Happy to have you here. And I congratulate you 
both and look forward to working with you in these new 
assignments.
    Admiral, you have been here many times. Thanks again for 
being here with us.
    However, today, you have an unenviable task of explaining a 
late OCO [Overseas Contingency Operations] request that has 
little detail and contains new funds and authorities that 
Congress heard about for the first time in the press, rather 
than from the Department, an occurrence that has become all too 
frequent.
    Although the NDAA [National Defense Authorization Act] has 
passed the House, we will continue to work with the other 
committees of jurisdiction to review the $58.6 billion OCO 
request and provide detail authorizations as we go to 
conference.
    I am deeply concerned by the emerging narrative that, based 
on the projection of significantly fewer troops deployed to 
Afghanistan in 2015, the OCO request should automatically have 
a proportionate reduction.
    U.S. contingency operations do not end with Afghanistan. As 
recent headlines show, U.S. forces in theater support a broad 
range of operations outside of Afghanistan, from the broader 
Middle East to the Horn of Africa and the Philippines, as well 
as other places around the world.
    A decade of war has taken its toll on our forces. We have a 
moral obligation to our troops to reset the force and to 
restore readiness.
    Frankly, I am concerned that future OCO requests will not 
rectify the reset liabilities that currently exist.
    While we continue to migrate enduring requirements from OCO 
to the base budget, we understand that sequestration continues 
to be a burden on the Department. The only way to relieve this 
burden is to eliminate the discretionary budget caps imposed on 
the military.
    Lastly, while my focus today is on the broader OCO request, 
I would also comment that the President has set up the $5 
billion counterterrorism and European funds for failure. We 
understand that these initiatives were levied on the Department 
by the White House without coordination, and you are now 
working to develop spending plans. But while counterterrorism 
partnerships and reassuring our European allies are important 
and necessary, the President's approach lacks detail and is too 
broad in scope.
    I look forward to hearing your testimony today on these 
important matters.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 45.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I do welcome our 
witnesses. I appreciate your work and look forward to your 
testimony on this subject matter.
    The purpose of the Overseas Contingency Operation from when 
it was first set up--the funds were to fund the efforts in Iraq 
and Afghanistan. And this fund, at least in part, will do that 
in Afghanistan. There are still troops there. Our commitment to 
Afghanistan is going to last beyond the end of 2014.
    There are train and equip aspects of it. And in addition to 
the fact that we will have, if the bilateral security agreement 
ever gets signed in Afghanistan, residual forces there--as well 
we should. There is a terrorism threat from that region. We all 
remember
9/11, that unguarded territory in Afghanistan gave Al Qaeda 
safe haven to plot and plan. They are still there. The Taliban 
is still there. There are groups we need to be worried about. 
So, that portion of the funding makes a great deal of sense. We 
are going to need to continue to go forward there in some 
capacity. So, we will see where that comes out.
    Personally, I support the drawdown. I think the fewer 
troops we have there, the better, going forward for a variety 
of different reasons. But we will have a commitment there.
    Second, in this OCO request are some of the new authorities 
that the chairman outlined for a Combating Terrorism 
Partnership Fund and a European Reassurance Initiative. Both of 
those may make sense. I think I speak for the entire committee 
when saying we need to know more about what they mean, or what 
is going to be contained in them.
    Contained in one of those funds is an authorization for a 
Department of Defense [DOD] effort to support friendly rebels 
in Syria. Now, this is an effort that personally, I support. I 
understand the limitations of it, but the bottom line is, when 
you look at ISIL [Islamic State of Iraq and the Levant] and 
what is going on in Syria and Iraq, regardless of the outcome, 
we are going to need friends in that region.
    We have got an ugly situation between Assad, Iran, 
Hezbollah, and various Al Qaeda affiliates, or worse, in the 
case of ISIL. But the Free Syria movement that really started 
the idea that Assad needed to be replaced is primarily made up 
of people who are not sectarian. They simply want a better 
government and a better life for themselves. We can identify 
some of those people. We have identified some of those people, 
and we need to support them, because they are in a very, very 
hostile neighborhood. Still, on that piece, we would also like 
greater specifics.
    And then we get to the real big issue, which the chairman 
mentioned. And that is that a substantial portion of this OCO 
request really is not directly related to the war in 
Afghanistan. It has been spread out amongst a variety of 
different other funds. And I understand why we are doing that. 
It has been a difficult 4 years, frankly, for the entire 
discretionary budget, not just for the Department of Defense, 
as we have gone through government shutdowns, threatened 
government shutdowns, sequestration, and a variety of other 
things that have made planning and funding anything, certainly 
at the Department of Defense, complicated and difficult, and 
has really put us in a deep hole. And I share the chairman's 
sentiment.
    I don't support sequestration. I would expand upon that to 
say I don't just oppose sequestration for the Department of 
Defense, but for all other discretionary spending, as well. And 
there are a fair number of discretionary programs. You know, 
infrastructure, energy, health care, education--on and on--that 
have also faced the uncertainty and devastating cuts of the 
last 4 years. Sequestration doesn't make any sense. However, 
none of those other areas of our budget have an OCO. They don't 
have a place to go to back-fill.
    I don't necessarily oppose the idea that the Department of 
Defense does, but greater specificity as to the justification 
for that spending is something the committee and Congress is 
going to need to hear. All of which would not be an issue if we 
could get rid of sequestration and pass appropriations bills in 
a timely manner. You know, whatever the number is, at least 
give some predictability and dependency to the money we are 
going to spend. Congress hasn't done that, and that has created 
no end of problems. And I realize that the OCO is trying to 
respond to that situation, but we would like to hear a greater 
explanation for how those funds are going to be spent, and why.
    With that, I yield back. I look forward to the testimony.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 46.]
    The Chairman. Thank you.
    Before we hear from the witnesses--begin the business of 
the committee, I want to make clear that members of the 
audience must maintain order and refrain from manifestations of 
approval or disapproval of the committee proceedings, or 
interfere with the conduct of the committee's business. Any 
comments or disruptions during the hearing from the public will 
not be tolerated, and, if necessary, will result in removal 
from the committee room. I want to state this at the outset so 
that everybody knows the rules.
    Mr. Secretary.

STATEMENT OF HON. ROBERT O. WORK, DEPUTY SECRETARY OF DEFENSE, 
 U.S. DEPARTMENT OF DEFENSE; ADM JAMES A. ``SANDY'' WINNEFELD, 
JR., USN, VICE CHAIRMAN, JOINT CHIEFS OF STAFF, U.S. DEPARTMENT 
  OF DEFENSE; AND HON. MICHAEL J. MCCORD, UNDER SECRETARY OF 
       DEFENSE (COMPTROLLER), U.S. DEPARTMENT OF DEFENSE

                STATEMENT OF HON. ROBERT O. WORK

    Secretary Work. Mr. Chairman, I have a longer written 
statement that I would like to insert in the record, but I 
would like your permission to just give a very brief overview.
    The Chairman. Each of the witnesses' complete written 
testimonies will be included in the record without objection, 
so ordered.
    Secretary Work. Thank you, sir.
    Chairman McKeon, Ranking Member Smith, members of the 
committee, we very much appreciate the opportunity to be here 
this morning. On behalf of Secretary Hagel, Chairman of the 
Joint Chiefs of Staff General Martin Dempsey, and the men and 
women in uniform that we all serve, we want to thank this 
committee especially for your continued support to our troops, 
who every day are conducting operations on behalf of our 
Nation's security in what is becoming a very volatile, complex, 
and dangerous world.
    It is with those ongoing operations in mind that I would 
like to address DOD's fiscal year 2015 Overseas Contingency 
Operations request. As you know, it is $58.6 billion, which the 
President recently submitted to Congress.
    This request is about $27 billion--$26.7 exactly--or about 
one-third less than the $85.3 billion enacted by Congress for 
OCO last year. It is $100 billion less than the $159 billion 
that was enacted just 4 years ago.
    It reflects a continued downward trajectory of our war-
related spending as we conclude our combat mission in 
Afghanistan after 13 years of war. However, even as the war 
ends--and this was one of the points that the chairman made--we 
will continue to seek OCO to cover the costs of returning, 
repairing, and replacing equipment until that process is 
complete--the costs associated with our broader presence in the 
Middle East, from which we support a number of critical 
missions in the region, as well as unforeseen contingencies.
    The requested funds for 2015 would provide $53.4 billion 
for Operation Enduring Freedom [OEF]. This funding will support 
the responsible drawdown of forces in Afghanistan, as announced 
by the President. It will provide continued support and 
assistance for the Afghan National Security Forces and our 
coalition partners. It will pay for the retrograde of equipment 
and personnel and the continuing reset of forces. And it will 
enable a really vast range of support activities in theater, 
including logistics and intelligence. And it will support a 
portion of the temporary Army and Marine Corps end strength 
that supports OEF as approved by this committee, which we very 
much thank you for.
    The 2015 OCO request also supports the two Presidential 
initiatives the chairman and the ranking member referred to--$5 
billion for the Counterterrorism Partnerships Fund, of which 
DOD would receive $4 billion, and $1 billion for the European 
Reassurance Initiative, which DOD would receive $925 million. 
Before I briefly touch on these two initiatives, I would just 
like to talk about three important points of the OCO submission 
writ large.
    The costs in Afghanistan and the greater Middle East region 
remain substantial. Even with the end of our combat role in 
Afghanistan, we will continue to provide continuing support for 
our troops and carry out our ongoing counterterrorism mission 
there, which I am sure everyone here will agree, is not getting 
any easier. This will require high-end intelligence, 
surveillance, and reconnaissance assets, close-air support, 
force protection, and logistics into next year. We also must 
return thousands of pieces of equipment from Afghanistan to our 
home stations and close down hundreds of combat facilities 
there. That is a process that is ongoing and that I talked with 
the people in my recent trip to Afghanistan. It also supports 
other important missions, as approved by this committee and the 
other committees in Congress, outside of Afghanistan, including 
the Middle East [and] Horn of Africa.
    Secondly, this request will continue to help our military 
recover and reset from more than a decade of fighting. It is 
going to be used to repair and replace damaged or worn-out 
equipment after prolonged use. And when units return from 
combat, as is our intent, and this Congress--I mean, this 
committee--has supported, restoring them to a condition that 
allows them to conduct training exercises, achieve their 
readiness levels, and prepare for future deployments. The need 
for this equipment reset will continue beyond 2015.
    Third and finally, this request provides continued support 
and assistance to our partners, the Afghan National Security 
Force. Over the last year, these forces have demonstrated 
tactical superiority over the Taliban and they have prevented 
the Taliban from gaining momentum, as demonstrated by their 
professionalism in the most recent national elections.
    We believe it is critically important that we maintain 
sufficient financial support for these forces, so they can 
sustain these gains and continue to assume full responsibility 
across Afghanistan.
    I will just quickly touch on the two new initiatives. I 
know there are a lot of questions about them. The CTPF, the 
Counterterrorism Partnership Fund, this $5 billion includes $4 
billion, as I said, for the Department of Defense. And the 
overall goal is, one, to increase the ability of our partner 
countries in the region to conduct counterterrorism operations 
and, two, prevent the proliferation of terrorist threats from 
neighboring states. And three, participate in multinational 
counterterrorism operations, including countering ISIL and 
other terrorist groups in the region.
    About $2.5 billion of that is for counterterrorism support, 
and $1 billion for a Syria Regional Stabilization Initiative, 
which will help Syria's neighbors including Iraq, Jordan, 
Lebanon, and Turkey confront the threats there. As part of this 
initiative, we are seeking $500 million to train and equip 
vetted elements of the moderate Syrian armed opposition, and an 
additional $500 million would be for crisis response for U.S. 
forces.
    The second initiative, the ERI, the European Reassurance 
Initiative, was announced on June 3rd in the President's speech 
in Warsaw. It proposed increases in the U.S. military 
deployments in Europe after the developments in Eastern Europe 
and in Ukraine, in particular.
    We believe that a more temporary increase in rotational 
U.S. air, land, and sea presence in Europe, especially in 
Central and Eastern Europe, along with more extensive bilateral 
and multilateral exercises and trainings are necessary and 
appropriate demonstrations of support to our NATO [North 
Atlantic Treaty Organization] allies and partners who are 
deeply concerned by Russia's occupation and attempted 
annexation of Crimea and other provocative actions in Ukraine.
    So to summarize, the funds we are requesting will support 
our troops who are already serving in harm's way in Afghanistan 
and elsewhere in the Central Command area of responsibility. 
They will support the President's decision to maintain U.S. 
presence in Afghanistan. They will fund these two initiatives 
that are needed to further our national security objectives, 
both in counterterrorism and Europe, and we ask for your 
support for these requests.
    Mr. Chairman, this concludes my statement. And we look 
forward to answering your questions.
    [The joint prepared statement of Secretary Work and Admiral 
Winnefeld can be found in the Appendix on page 48.]
    The Chairman. Thank you. No further opening statements. 
Thank you.
    As I stated in my opening remarks, there is a narrative 
that, based on the lower number of troops deployed in 
Afghanistan in 2015 after we have finished the drawdown, the 
OCO request should only be $20 billion in fiscal year 2015. 
This obviously doesn't take into account operations and 
enduring activities outside of Afghanistan, as well as 
resetting the forces' equipment returns from theater.
    Can you discuss the activities and force structure outside 
of Afghanistan that the OCO request supports and how these 
funds directly or indirectly correlate to the number of boots 
on the ground in Afghanistan?
    Secretary Work. Yes, sir. Operations directly related in 
Afghanistan in the force protection operations there have come 
down from 28--or $26.2 billion in 2013 enacted and have fallen 
all the way to $11 billion. So we are actually seeing in 
Afghanistan, as troops levels come down, a very substantial 
reduction.
    But you know, over that same time, the amount of money that 
is dedicated to in-theater support in Central Command area of 
responsibility, which the relevant committees in Congress have 
been very helpful. That is $18 billion. The remainder of the 
money is all really indirectly in support of Afghanistan. For 
example, the Joint IED [improvised explosive device] Defeat 
[Organization]. That is very heavily focused on Afghanistan, as 
well as other partners. The extra money includes reset. The 
extra money includes the two new funds that the President has 
asked for. It includes the Army and the Marine Corps temporary 
end strength. It includes classified support.
    So if someone just looks at the boots on the ground, I 
think they are missing the forest for the trees. The actual 
money that is supporting the operation's force protection in 
Afghanistan itself is coming down. But the indirect support for 
those forces as well the other forces in the Central Command 
area of operations are still doing very, very important work 
and that is what is really part of the whole $57 billion. I 
would ask Admiral Winnefeld if he has----
    Admiral Winnefeld. And I think the fact that it is $26 
billion less than it was this current year is very indicative 
of the fact of the drawdown in Afghanistan. But just because 
something isn't in Afghanistan doesn't mean that it is 
enduring. And I would echo Deputy Secretary Work's statements 
about--there is an awful lot in this request that is outside 
Afghanistan, but that supports Afghanistan or is an integral 
part of our operations in Afghanistan.
    But I would also like to make the point that as sequester 
has impacted the Department, it has really squeezed our ability 
to absorb within the Department unanticipated operations. I 
will just use a couple of examples. The Tomodachi earthquake in 
Japan. We absorbed all of the expenses for that that were not 
what we would normally be spending for deployed ships and the 
like elsewhere in the Department.
    We have a lot less capability to do that now than we did 
before. So the $500 million which is part of the CTPF request 
is going to help us do things like that. Another example, we 
have a Patriot battery in Turkey that we put in last year, 
because of the crisis in Syria. The Army is taking that out of 
hide right now. And as you know, the Army is not in a position 
to take an awful lot of stuff out of hide.
    So I think it is a reasonable request in here, in terms of 
$20 billion less than last year--fully supports the operations 
in Afghanistan, including how they are supported from outside 
Afghanistan, and also it starts to build just a little bit of 
room for us to be able to manage unanticipated contingencies 
that can arise anywhere in the world. And we really would 
appreciate congressional support for that idea and for the 
small amount of funding we are asking this year for that.
    The Chairman. Readiness, specifically, with respect to the 
services' core mission has been affected by over a decade of 
war. For example, young Marines have not trained in core 
amphibious missions. They are becoming Army. And the Air Force 
cannot meet its readiness needs until 2023. Given the current 
pressures on the base budget, did the Department consider 
addressing non-reset and sustainment readiness shortfalls in 
the budget amendment?
    Admiral Winnefeld. Mr. Chairman, in trying to stay true and 
faithful to what the concept of overseas contingency operations 
really means, we didn't view that kind of training necessarily 
as falling into that category. It would be tempting to do that. 
We would love to do that. But we really wanted to stay faithful 
and really reset this OCO idea into what it is really supposed 
to be.
    But what we would really like to get is support from the 
Congress for the readiness accounts that we have, so that we 
can train all of the services into that full spectrum of 
operations that you so correctly refer to. And I think that the 
overall budget submission the Department has made will help us 
do that. The more we lose in things like compensation savings, 
and the like, we are going to squeeze that even more.
    Secretary Work. Just to follow on, Mr. Chairman, I couldn't 
agree more with the vice chairman's comments.
    If you took the money that was outside--if you just said, 
``Okay, we are only going to fund the forces and the force 
protection operations in Afghanistan, and that is it,'' the 
rest of that money would have to be absorbed in the base 
budget. And as the vice chairman said, it would most likely 
come out of primarily readiness. And we are ready. As the 
chairmen of the Joint Chiefs had told this committee and 
others, the readiness problem is the thing that worries us the 
most every day. This is not something that we are making up. 
This is something that we actually spend most of our time 
thinking about--how do we get out of this readiness trough over 
the next couple years?
    So, I completely echo what the vice chairman said. If we 
had to absorb a large portion of this in 1 year, we would in 
essence have two sequestration hits in 1 year. It would be 
extremely difficult, if not impossible, to absorb that type of 
a cut.
    The Chairman. You know, my concern isn't that the number is 
too high. My concern is it is too low--both this and the base 
budget, but we have talked about that many times.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Just to sort of drill down this point--in terms of what the 
OCO is for. Is it your contention that the full $58.6 billion--
well, first of all, for overseas contingency operations--I 
guess, how would you define those? I mean, we think of it in a 
fairly straightforward way in terms of the cost of being in 
Afghanistan.
    Now, Admiral, you mentioned some other issues. But if, in 
fact, the OCO is meant to be broader than that, that is okay. 
But I think we need some parameters on what ``broader than 
that'' means. So, is there any way you can break it down and 
say, okay, $58.6 billion--you know, $20 billion of it or 
whatever is for what is going on in Afghanistan. You know, 
another $10 billion is for the readiness gaps that have been 
created by what is going on in Afghanistan, and even, I guess, 
probably still absorbing what happened with Iraq. And then we 
have got other portions for, as you mentioned, Admiral, some of 
those unforeseen things.
    I think, that is one of the things that has been sort of 
vexing for Congress about the OCO presentation here, is it has 
been sort of a ``hide the ball'' thing. We don't know why. I 
mean, there may be justifications, but it has not been clearly 
explained beyond, as I said--the average Member of Congress--
okay, OCO--we are in Afghanistan. We get that. But what else? 
Is there any way you could refine your point on that?
    Admiral Winnefeld. Sir, before I defer to the deputy 
secretary and to Mr. McCord--the way we would tend to define 
what ought to be in an OCO-like appropriation would be anything 
that we do while we are deployed, or that supports our 
deployments that is over and above what we would normally do in 
a tabula rasa peaceful world----
    Mr. Smith. Right.
    Admiral Winnefeld [continuing]. Where we are just 
maintaining a deterrent presence. And I hate to do math in 
public, but I would say, you know, about $53 billion of this is 
directly supporting something that we wouldn't ordinarily be 
doing, and that is an Afghanistan contingency.
    And there are other things in there--the President's 
initiatives on the CTPF and the ERI that are things that we 
wouldn't ordinarily be doing in a normal world, either.
    I will give you an example of what I mean by this.
    An ordinary aircraft carrier with its carrier air wing that 
is deployed to the Arabian Gulf for a deterrent presence--none 
of the flying hours that that carrier flies that it would 
normally fly on a normal deployment are charged to OCO. 
Anything it flies above and beyond that to support a 
contingency in Afghanistan, or even flying missions over Iraq, 
as we are now, we would tend to charge to OCO because that is 
something we didn't anticipate doing.
    In a way, you can look at it as actually being more 
efficient with the defense budget, rather than having a large 
budget that you, you know, try to find the slop in, if you can 
find it in order--you know, rob Peter to pay Paul--you would 
now have a fund that you can use, particularly with the CTPF 
and the $500 million I just mentioned.
    Mr. Smith. Right.
    Admiral Winnefeld. But you only spend strictly controlled 
if it is something over and above what you would ordinarily do.
    Mr. Smith. I understand that. I mean, one could make the 
argument that--I mean, there is always going to be something 
unanticipated in the defense world. And you try to budget 
within the parameters of that, and not have a separate fund in 
case something comes up.
    And, again, most of the other budgets--they have things 
that come up and surprise them, as well. Department of Homeland 
Security is experiencing that right now. But we have done this 
with disaster relief and on and on. But, of course, we do 
occasionally send up supplementals for all of those things. In 
fact, one has been requested for the Department of Homeland 
Security. So, I think that does make sense.
    Secretary Work. Yes, sir.
    Mr. Smith. Mr. Secretary.
    Secretary Work. Just to follow on--again, for those who 
just count the troops in Afghanistan and say, ``Holy moly. 
The----
    Mr. Smith. Right.
    Secretary Work. ``OCO isn't coming down''--it is an 
entirely erroneous argument. If you take a look at the amount 
of money that is specifically just for operations of the forces 
and the force protection, then you see that downward slope 
from, as I said, $26 billion in 2013 to only $11 billion in 
this one. But as the vice chairman has said, over time, we have 
rules that we actually have to follow with OMB [Office of 
Management and Budget] that have developed with our interaction 
with Congress and OMB.
    Everything that is in this request, we can explain based on 
past practices. It includes the Joint IED Defeat 
[Organization]. It includes the Office of Security Cooperation 
of Iraq. It includes all the reset money. It includes a 
temporary end strength. All of these things are indirectly in 
support of those service men and women who are in Afghanistan.
    And then the other portion of it, specifically to your 
question, is--about 2 years ago, we started to debate on 
whether or not to include these outside Afghanistan and in-
theater costs. And for the last 2 years, they have been part of 
the OCO budget and are in this year. And that is another $18 
billion, so----
    Mr. Smith. And I get all that. Let me just note that it 
would be more helpful for all of us concerned if all of that 
calculating was done sooner, so that we--you know, I mean, we 
marked up our bill in May. We went through all of that. I mean, 
May is a good 6, 7 months into the fiscal year. It seems like 
we ought to be able to get that to us somewhere around the same 
time that we get the general budget request. And that should 
happen.
    One final area of questioning. The problem with these two 
funds--and I--you know, I certainly support the idea of the, 
you know, the counterterrorism fund. I think, you know, in 
building partnerships with our friends in Europe and all that. 
But as we look at them, they appear fairly open and open-ended 
in terms of, you know, what you could conceivably spend the 
money on.
    Where in the OCO request are there any restrictions on 
those two funds on what the DOD could decide to do with the 
money?
    Secretary Work. Well, sir, I think this is an interactive 
discussion that we are looking forward to. On one side is, have 
a fully cooked plan that we can say, ``This is exactly how we 
expect to spend the money,'' and then debate the merits of the 
plan.
    Mr. Smith. Yes.
    Secretary Work. And the other one, which is what we have 
tried to do, is, we see what is happening in the greater Middle 
East and the Central Command area of responsibility and Europe. 
We know that we already have plenty of authorities, which the 
Congress has given us--1206, 1208, 1207, Global Sustain and 
Lift. And rather than saying, ``We think we will put money on 
all of those bins that have caps,'' it would be better for us 
to agree on the types of things that we would be able to do, 
and then work with the oversight level that the Congress is 
comfortable with.
    So, it is these two poles. I know that on one side, it is a 
fully cooked plan. The other one is to have a more flexible 
plan, which is what we are arguing for. But we are actually 
looking forward to the discussion with the committees and 
Congress on how best to do this. Because we see what is 
happening in Iraq, Afghanistan, Syria, throughout the greater 
region. Flexibility is something we really need now, based on 
the very, very difficult time we have in our overall budget.
    Admiral Winnefeld. And I would just add briefly, we have 
the 15-day notification requirement that we will have to submit 
to the Congress. And I know that there is a waiver in there. 
But if you go to that well too often, you are going to end up 
losing in the end. And we do really look forward to working 
with the Congress on this.
    Mr. Smith. I am not sure arguing right now about 
notifications requirements is the best approach with this 
committee, but I do appreciate that it is there.
    So, I yield back.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman. And, Secretary 
Work, welcome. I think on that last point, however, you have 
been given kind of a difficult assignment for your first job 
here in front of this committee on these new authorities. And I 
am sympathetic with having a discussion on how we can improve 
the authorities that exist to deal with the real world.
    Our subcommittee has a number of hearings on 1206, 1208--
what is happening with that money, what sort of circumstances 
are we confronting around the world, and how do existing 
authorities tie our hands for dealing with them?
    I just don't think coming up--the President giving a speech 
at the end of May and then coming up a few weeks later saying, 
``Give me $5 billion for me to spend'' is a very good way to 
have a conversation about having these authorities. And so, let 
me see if I understand a couple things.
    One is that this new authority on counterterrorism does not 
replace 1206, 1208, or the Global Security Fund. It is kind of 
a piggy bank over here that then you could move funds from the 
new authority into those other funds. Is that right?
    Secretary Work. Yes, sir. That is essentially correct. It 
is a transfer fund which would utilize the existing authorities 
so it would give us permission to go over the caps that you 
have already established in those particular authorities after 
notifying Congress and describing what we would do.
    We are only asking for one new authority and that has to do 
with the Syrian initiative. But we can't go too much into that 
in an open hearing.
    Mr. Thornberry. No, I understand.
    It just seems to me, for example, this year in its regular 
budget request, the administration asked for an increase in 
some of the caps. So we ought to have that conversation. As I 
say, we just had a hearing last week going on where that money 
is spent and why we are bumping up against the cap. But to have 
another fund out here that can just get around the caps, to me, 
may not be the most helpful approach moving forward.
    Let me just ask one question on the Syria thing because it 
looks like half of the money goes to neighbors. And I notice in 
your written statement, some of that is for humanitarian 
purposes. Is that money that DOD would spend? Is it giving to 
Jordan, et cetera. Explain to me the humanitarian aspects of 
DOD OCO funds for Syria's neighbors.
    Secretary Work. I think I might be mixing apples and 
oranges here, sir. There is $500 million for us to improve the 
partnership of the surrounding countries around Syria, so that 
would be Jordan, Lebanon, Turkey, Iraq. Then there is $500 
million to assist appropriately vetted Syrian opposition 
groups. And then there is another $500 million that State has--
or excuse me--$500 million that State has that--and I believe--
and I will ask Mr. McCord to make sure I am not getting this 
wrong, that I think most of the humanitarian assistance would 
be coming from the State aspect of it.
    Secretary McCord. Yes, if you think about the humanitarian 
crisis that there is of all the displaced people, that is not 
something the Department is planning on handling with our part. 
And I think, in fact, State would mainly do that with some of 
their existing funds. We would be much more focused on the 
border issue, the border security with Jordan, things like 
that, than dealing with the--we are not intending to go into 
the refugee camps and provide assistance with our fund.
    Mr. Thornberry. Right. Well, that is what I wanted to make 
sure I understood. Let me just ask briefly about the European 
Reassurance Initiative. I guess my first question is about the 
name. We are part of a NATO treaty alliance where we are 
pledged to defend each other when attacked. So why does Europe 
need to be reassured with money?
    Secretary Work. Sir, this would be--well, first of all, I 
just came back from the United Kingdom, and I spoke with the 
senior leaders and they said, 6 months ago, they were trying to 
figure out what the NATO Summit would be really discussing. And 
now President Putin has given them very much focus.
    All of the governments in NATO and the European Union are 
trying to determine, you know, how to respond. And this is 
something that the United States has always done to reassure 
our NATO allies that we would be with them. And all of this 
money would go into allowing us to have more frequent forward 
deployments, more frequent exercises. We would be able to do 
improved infrastructure that would allow rapid reinforcement, 
if that became necessary.
    So this is just another commitment to NATO that this--we 
understand, you know, you have shifted your attention to Asia. 
This is just another way to reassure our allies and NATO that 
we are a global power. We have global responsibilities and we 
would want them to know that we are there with them.
    Mr. Thornberry. Well, not my thought. For what it is worth 
is they need to be reassured, perhaps of U.S. leadership and 
U.S. commitment. I am not sure that having another fund really 
accomplishes that. But I yield back. Thank you.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you to all of you, Secretary Work, Admiral, and Mr. 
Secretary McCord as well. I know it is a little difficult to 
speak in terms of a great deal of detail. And I understand the 
way you need to bracket that. But I also wonder if you could go 
into some detail than you have given us about the $140 million 
for the Office of Security Cooperation-Iraq and more background 
about how that is going to be spent and how the additional U.S. 
forces in Iraq would be funded? I understand this is not boots 
on the ground, but we still have to fund. And what other 
potential courses of action in Iraq, how would that be funded?
    Secretary Work. Ma'am, the OCO budget does not include any 
money that would cover the operations and the things that we 
have been doing most recently in Iraq, as far as the 
assessments, et cetera. The Office of Security Cooperation-Iraq 
[OSCI] has been there since we have left. They handle all the 
FMF [foreign military financing] cases. They are responsible 
for bringing the F-16s into service as well as all of the other 
ones. This has been a longstanding program.
    And the Office for Security Cooperation-Iraq, obviously, a 
lot will determine on what the outcome is on the government 
formation in Iraq. But right now, nothing in the OCO covers any 
of the other aspects we are doing with the possible exception 
of the $500 million we have asked for crisis support 
operations, which goes right back to what the vice chairman was 
saying. These were unexpected events. It would be very 
difficult to take out of hide.
    Admiral Winnefeld. The deputy is exactly correct, on the 
$140 million for OSCI Iraq. Those are the people who are trying 
to help the Iraqis at the ministerial and high levels, you 
know, maintain their military. The current things that we are 
doing in Iraq we wouldn't use OCO for that because those are 
coming out of forces that are already in theater. We didn't 
deploy any extra forces to the theater to do this. I would say, 
and obviously it is this fiscal year, it is not the fiscal year 
we are asking for this appropriation. But in a future year, for 
example, we had to take some contingency action in Iraq. If the 
President were to choose to do that, then this is the kind of--
the $500-million piece of this which is relatively small, 
compared to the amount of contingency money we have spent in 
other places, but it is a start. That is what we would tap into 
to fund and recover from some of those operations. And a 
related example would be if we had taken kinetic action in 
Syria last year, then this is the first place we would turn. 
That small $500 million fund.
    Mrs. Davis. Are you suggesting then that if there are 
additional dollars for Iraq, the 15-day notification would kick 
in?
    Admiral Winnefeld. We would, yes, we would. If we were to 
do that, we would give you the 15-day notification. Now if it 
were an emergency, as we have done in the past with Congress, 
we will--you know, we will call and say, hey, we don't have 15 
days here, are you okay with this. And we have had a pretty 
good cooperative relationship, I think, with Congress when that 
has come into play.
    Mrs. Davis. Okay. Great. I know that the--a question was 
asked about the Syria Regional Stabilization Initiative, but I 
think it is still an issue of why that requirement is part of 
the undefined transfer fund. And not a direct request of 
Congress to provide assistance. Can you clarify that again?
    Secretary Work. As part of the broader counterterrorism 
partnership strategy that the President outlined, obviously, 
everything that is happening right now in Syria and Iraq has 
been the focus of intense discussion and debate with inside the 
administration. And I think the President felt that we know we 
are going to be doing something. We are not certain what it is. 
And what we tried to do is peg to certain levels of effort. So 
for example, the $500 million that we had for our partners, we 
just said, what would happen if we had to do something to 
assist one of the countries. And we just kind of built it out 
from there to give examples to the committee and Congress on 
this is type of things that we are anticipating. But it is 
impossible for us to predict exactly right now what it might 
be.
    Admiral Winnefeld. You know, the other thing I would append 
to that, if I might, is you know Russia's illegal seizure of 
Crimea occurred after our budget submission. And so, you know, 
we didn't intend to submit a new budget because of that. This 
is a good vehicle for us to approach the Congress and request 
money to do the things we think we need to do in Europe to 
reassure our allies.
    Mrs. Davis. All right. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And Mr. Work, I just want to read you three headlines, and 
then I want to get to a question. ``Is the Pentagon Wasting 
Taxpayers' Money in Afghanistan?'' ``The United States 
'Military Was No Match for Afghan's Corruption,'' subtitled 
``the Pentagon wasn't just defeated by the country's graft--the 
Pentagon made it worse.'' And then another title, ``Money Pit: 
the Monstrous Failure of U.S. Aid to Afghanistan.''
    I represent the 3rd District of North Carolina, which is 
the home of Camp Lejeune Marine Base and Cherry Point Marine 
Air Station.
    Four weeks ago, I went to Walter Reed Hospital. There were 
two Marines from my district who had been severely wounded.
    In visiting the rehabilitation area, I met three Army 
soldiers from Fort Bragg, which is not in my district, who had 
lost one leg each.
    Then the young Marine that I went to see--I saw he and his 
father--the young Marine had lost two legs and one arm; 23 
years of age. The father had the saddest eyes I have ever seen 
as we were talking about his son's future.
    The second Marine from Camp Lejeune February this year 
stepped on a 40-pound IED, lost both legs.
    I look at the absolute waste of life first and money second 
and here you are asking for money. I understand that.
    But the American taxpayer is absolutely frustrated and 
broke because of these overseas activities. I do not understand 
why you can sit here today and ask for this money with such 
waste, fraud, and abuse going on in Afghanistan.
    A few of us on this committee have met separately with John 
Sopko, the Inspector General for Afghan Reconstruction. And we 
met in a bipartisan way at an 8 o'clock breakfast that we put 
together ourselves.
    And to hear his explaining of absolute ridiculous waste of 
the taxpayers' money, and then I look at these Marines and 
these Army guys that I saw just a few weeks ago--I don't know 
how in good conscience the administration or the Defense 
Department can come here and ask for additional money when you 
can't even account for 70 percent of it that is going over 
there.
    It is an absolute waste and I do not understand on behalf 
of the taxpayers and those in the military when we sit here at 
many hearings and we talk about we need more money to maintain 
platforms, to build new platforms, to rebuild our military that 
has worn out, where in the world did we not get to a point that 
we say enough is enough?
    The Afghan's parliament had the right to vote on a 10-year 
bilateral security agreement, and we in Congress have not had 
that opportunity. I don't blame the President for that; I blame 
ourselves, quite frankly.
    But the frustration of the American people is getting 
deeper and deeper and deeper. And I don't know why you need 
this money; it is nothing but a slush fund, anyway.
    And we got no more business going into Syria than I do 
walking from here to China; it makes no sense at all.
    I would like just to hear your comments about 
accountability because I know you are new on the job. But you 
need to get John Sopko in your office, one-on-one, and get John 
Sopko in front of the President of the United States and just 
hear how the American taxpayer is being abused.
    Yes, sir; please.
    Secretary Work. Well, sir, I am a Marine. I finished Active 
Duty in 2001. I visited the very same service men and women who 
are on the ward in Walter Reed. In fact, I think I went just 
last week.
    I think if you asked any of them if their----
    Mr. Jones. [Off mike.]
    Secretary Work. Well, I just wanted to say, sir----
    Mr. Jones. Sir, I wanted to know about the waste, fraud, 
and abuse that is taking place every day and what is the 
Department of Defense trying to do about it? That is all I want 
to know.
    Secretary Work. All right, sir. I will get right to it. I 
think each of them would say that they felt that their 
sacrifices were for something worthwhile.
    I just visited General Dunford in Afghanistan. His 
discretion----
    Mr. Jones. You are not answering--my time is almost up.
    Secretary Work. All right.
    Mr. Jones. You cannot explain the waste, fraud, and abuse 
and that is what is wrong with your request, quite frankly. 
Thank you.
    Secretary Work. Sir, I would say that we can explain--the 
IG [Inspector General] is doing a very valuable function in 
pointing out to areas where we could have done better, but we 
believe that the money that we are requesting is for a 
worthwhile endeavor.
    Mr. Jones. Thank you, Mr. Chairman.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Gentlemen, I want to thank you for your testimony here 
today.
    I am still trying to make sense of all this. Some of it has 
been answered, but there are still some contradictory or 
unclear purposes for the fund.
    Let me ask this: What percentage of the request is for 
making up for base budget shortfalls and are OCO funds being 
used for UFRs [unfunded requirements]?
    Secretary Work. I didn't hear the last part of the 
question, sir.
    Mr. Langevin. I said are OCO funds being used for unfunded 
requirements? So, I said they--what percentage of the request 
is making up for base budget shortfalls and the second question 
is are OCO funds being used for unfunded requirements?
    Secretary McCord. Congressman, we would say none of it is 
used for base budget shortfalls. Per se, our base budget as was 
noted by the ranking member was well--you know, submitted well 
before this one was. So, we didn't have anything that was being 
saved for an OCO request that was undetermined.
    The OCO request was waiting on the enduring presence issue 
mainly. We did not--the OCO request has no correlation with the 
service chiefs' unfunded requirements list. That is not what 
it--again, not what it was built for.
    There are things, and the deputy secretary alluded to the 
temporary end strength, that would be very difficult for us to 
do without the OCO, but it is not the case that we are--that we 
view this as just extra base budget money.
    Secretary Work. A different way to answer, sir, is that if 
we had to absorb this into our base budget, it would make 
already a difficult problem for us impossible.
    Admiral Winnefeld. And I would add that there are things we 
rejected that could have been in this request that would have 
done exactly what you are suggesting, and that would be 
substituting, you know, basically an unfunded requirement 
slipping in here and we rejected that during this process.
    Mr. Langevin. So, is the fund to be used solely to support 
foreign forces, entities, et cetera, assisting U.S. forces, as 
indicated in budget justification materials and that the name 
implies? Or is the fund going to be used to fund U.S.-only 
efforts and operations?
    Secretary Work. Are you speaking of the OCO writ large, 
sir, or one of the two funds that we just----
    Mr. Langevin. One of the two funds.
    Secretary Work. The two funds--there is money in there for 
U.S. forces. As the vice chairman said, there is $500 million 
to support our contingency response operations. There is money 
in there to support ISR [intelligence, surveillance, and 
reconnaissance] enablers that we might purchase in support of 
our partners; that might be a Predator orbit, for example.
    So, there are things that would support our forces in those 
funds. But a very good portion of it is to support our 
partners.
    Mr. Langevin. And, so then, my next question is what is 
your understanding of the interagency policy process by which 
the National Security Council will solicit information on 
requirements for funding from this account, allocate funding 
in, and how will the money actually be executed?
    Secretary Work. It was developed through a very robust 
interagency process involving Department of State, OMB, 
Department of Defense, our other government agency partners.
    We anticipate what would happen is the National Security 
Council and OMB--we would go to them, explain what we want to 
do; they would then give their approval. Then we would come to 
Congress with 15-day notification and wait and go from there.
    So, we do anticipate an interagency process here, with the 
exception of emergent things, as the vice chairman has said.
    Admiral Winnefeld. And I would just add, as an example, the 
$500 million that we would anticipate for training and 
equipping Syrian opposition forces--that is going to be subject 
to a very, very intense and rigorous interagency process 
through the deputies and the principals, ultimately the 
President, and then of course we would consult with Congress 
with the 15-day requirement.
    Mr. Langevin. And so, then my next question--Mr. Secretary, 
could you expound upon the plans for the $140 million requested 
for the Office of Security Cooperation-Iraq and what courses of 
action require additional funding requests to Congress and what 
actions would cause the Department to notify Congress or 
congressional notification to undertake additional military 
intervention?
    Secretary Work. Mr. McCord might have some more specifics. 
But as we discussed, sir, the Office of Security Cooperation-
Iraq has been there since we left in 2011.
    They do all of the FMF cases. So, right now, they are the 
ones who are handling the transfer of Hellfire missiles; they 
are the ones who were working on the F-16s that the Iraqis have 
purchased; they would be the ones that would handle the other 
things, just like another Office of Security Cooperation in 
many of our countries around the world. But I don't have any 
more specifics on that.
    Secretary McCord. I would just add that the OSCI request is 
the same request that we had last year and the year before, as 
the deputy said, that the committees have approved in the 
authorizing and appropriation language, have given us the 
particular authorities that vest in the OSCI, whether it is for 
transportation or logistics.
    So there is nothing new in the OSCI. What is the new 
situation in Iraq, as the vice chairman said, with respect to 
the advisers, with respect to what is going on with ISIL, is 
not encapsulated in any specific proposal in this request.
    That would, as the vice chairman said, have to come out of 
the Crisis Response Fund, or out of other OCO funds. But this 
request was not--the OSCI is in no way meant as a proxy for a 
new Iraq operation. It is just the same OSCI that we have been 
describing that we have had for a couple of years.
    The Chairman. Thank you. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. And Admiral, Mr. 
Secretary, Mr. Secretary, thank you all for your service to our 
country, and for being here. And Secretary Work, 
congratulations on your confirmation, and we look forward to 
working with you on that.
    One of the questions that I have is somewhat a follow-up on 
what Mr. Thornberry said regarding the European Reassurance 
Initiative. I supported the President when early on he made the 
decision that we should have a pivot to the Asia-Pacific area, 
and then supported the Secretary of Defense when he said we 
needed to have a pivot to the Asia-Pacific area.
    Didn't disagree when they changed the name to 
``rebalance.'' That was okay. But my concern is if I look at 
that area, I still recognize we have got some of the largest 
militaries in the world located there. We have got some of the 
largest economies in the world located there, probably two-
thirds of the world trade is going to come through there the 
next decade.
    But then I question this: When the President went for his 
visit there, he goes on the backdrop of a budget that was going 
to essentially cut a carrier out of our fleet, a budget that 
would put up half of our cruiser fleet, a budget that would 
impact our Tomahawk missile production. We hear rumors of him 
trying to take out six destroyers in the next budget.
    And then I look at this request, and we have a European 
Reassurance Initiative, where we say we have got to convince 
our allies in Europe that we are there for them. If you are an 
ally in the Asia-Pacific area, how do you read all of this? 
When you say we have got all these words talking about the 
shift, and the pivot, but then I see this backdrop that is 
taking away the capacity. And then second, I see this fund to 
Europe, but I don't see anything about the Asia-Pacific area to 
reassure our allies there.
    Give me some comfort level for them that I can take back to 
them.
    Secretary Work. Sir, I believe our interactions with our 
allies in the Pacific are extensive and very fruitful. They see 
our base budget, and they see that 60 percent of a fleet, for 
example, is now in the Pacific theater. They see some of the 
other initiatives that we are going about.
    And the ERI, I think the President was clear, and I think 
we have made clear, we consider the ERI more of a temporary 
nature. We don't see this one becoming more enduring. This was 
something that occurred. And our base budget is very, very, I 
think, focused on our allies in Asia, and working with both--I 
mean, the Australians, the South Koreans, the Japanese. I 
believe they would say that our interaction is very extensive.
    Admiral Winnefeld. Great question. I would say, first of 
all, if I were in the Pacific, and I observed the United States 
reacting to an illegal seizure of land by a large power, and 
that we are actually asking for money from the Congress to 
provide more reassurance, more actual building partnership 
capacity, more prepositioning in response to that, I might 
actually feel comforted that----
    Mr. Forbes. And Admiral, I don't want to disagree, because 
I respect all of you so much. But they do see China at this 
particular point in time, with all their territorial claims 
moving, and that to them is just as disconcerting as what they 
see in Europe.
    But let me give one more question. I don't want to cut you 
off, because I would love to hear you answer. But help me on 
the OCO funding, too. As I understand it, we have got about 
11,000, plus or minus, troops that are going to be there next 
year for fiscal year in Afghanistan.
    But the OCO funding also covers--we have got about 63,000 
troops around the globe. Could you just give me a snapshot so 
people understand this OCO funding is not just about 
Afghanistan, the broad breadth of what it is trying to cover in 
addition to that?
    Secretary Work. Yes, sir. You are exactly right. The 11,000 
is an average over 2015--excuse me, 11,000 over the course of 
the fiscal year as we draw down to 9,800, and then about half 
of that.
    The 63,000 forces that are in the Central Command area of 
responsibility in the Horn of Africa are doing very, very 
important missions every day; deterrence of Iran, working 
against counterterrorism in the Horn of Africa.
    So you are exactly right, sir, this covers 63,000 service 
men and women who are forward doing national security tasks 
every day.
    Mr. Forbes. Gentlemen, thank you so much for your time. 
And, Admiral, I would love to talk to you a little bit further. 
But I didn't mean to cut you off, but I was just running out of 
time. So thank you. And with that, Mr. Chairman, I yield back.
    The Chairman. Thank you. Mr. Barber.
    Mr. Barber. Thank you, Mr. Chairman. And thank you, 
gentlemen, for being here, and for your service.
    I want to talk a little bit about how OCO supports 
functions here at home. As you know, the budget concludes 
critical funds that keep our warfighters safe, and provide the 
resources for critical missions at military installations 
across the world.
    And actually in my district, Fort Huachuca in Sierra Vista, 
and Davis-Monthan Air Force Base in Tucson, where I proudly 
represent the civilians, airmen, soldiers who serve a critical 
role for our Nation. And at Fort Huachuca, specifically, the 
Army intelligence, signal, and cyber operations, many of these 
members work at the Army's Intelligence Center of Excellence, 
NETCOM [Network Enterprise Technology Command], and the Army--
9th Army Signal Command Headquarters. These men and women 
provide critical capabilities at OCONUS [outside the 
continental U.S.], operational requirements and contingency 
missions around the world. They also serve in capacities that 
are at the leading edge of technology in the forefront of cyber 
warfare, which is one of DOD's top priorities.
    Many special missions, gentlemen, like the ones at Fort 
Huachuca, have requirements that blend their daily tasks at 
home with overseas contingency operations. So I would like to 
ask, what do you see as the dual impact of sequestration, and 
the decline of OCO funding, on our intelligence and cyber 
communities; particularly, the important missions that are 
provided to our Army at Fort Huachuca?
    Admiral Winnefeld. I don't know that I can address Fort 
Huachuca exclusively, although we can get some answers for you 
on the record for that. But I would say that in the base 
budget, one of the things that we have protected very carefully 
is our cyber force.
    In fact, you know, we say flat is the new growth in our 
business. And in fact, the cyber force is growing. It is about 
the only place that is actually going to grow inside DOD over 
the coming years, based on the budget challenges we have had 
over time. So if that trickles down to Fort Huachuca, then--
particularly on the cyber side, then there would be some 
benefit there, I would----
    Mr. Barber. Well, I certainly appreciate the plus-up in 
cyber is critical. I mean, clearly, the wars of today and 
tomorrow are going to be fought, in many ways, in that arena.
    Let me ask Secretary Work a question about the bilateral 
security agreement [BSA], which we still hope will be signed as 
soon as the Afghanistan Presidential election is resolved. The 
question I have is, if it is not signed by fiscal year 2015, 
what impact would this have on the OCO budget, and what changes 
would have to be made, and how would resources have to be 
allocated differently?
    Secretary Work. It is a great question, sir. Well, first of 
all, a lot of people try you know, say, ``Hey, isn't what is 
happening in Iraq going to replay in Afghanistan?''
    And we say right now, absolutely not, because I have spoken 
to the people who tried to negotiate with Iraq on the status of 
forces agreement [SOFA], which would have allowed us to keep 
forces in country. And they could not get their parliament to 
deliver. They asked us to leave. Period, end of story.
    There are a lot of different views on how that happened, 
but that, I think, is the truth of the matter. Both of the 
Presidential candidates in Afghanistan have said they will sign 
the BSA.
    Now, what is troubling to us is as this electoral crisis 
continues, there is going to come a point where we are going to 
have to make a decision. But right now, both of the candidates 
have said that is one of the first things they will address.
    They want U.S. forces to stay in the country. They want to 
have a very close partnership, which goes back to why we do not 
think, in any way, shape or form, that the money we are asking 
for would be wasteful.
    The other thing we have to--this also addresses NATO. NATO 
has a SOFA agreement that they need to sign. There is a NATO 
ministerial in September. If the electoral problem is not 
resolved by mid-September, that is where I think it would 
trigger a big debate internally with our NATO partners and with 
Congress.
    So, to your exact point, if it falls apart and the BSA is 
not signed, the President said we will start a withdrawal. And 
of course, that would impact ultimate spending on the OCO 
funding.
    Mr. Barber. The clock is really ticking on this. Obviously, 
we now have a recount going on of all of the ballots. I mean, 
it could take weeks and weeks and then who knows what the end 
result will be, in terms of the dispute over the findings.
    Is there a breaking point when we have to decide we are out 
of there because we don't have a BSA?
    Admiral Winnefeld. Really good question. Currently, it is 
actually an audit of the ballot boxes; it is not a recount; 
technical term. But that will take a little less time than an 
actual full recount.
    But we are working very closely--Joe Dunford over there is 
working very closely to support this process as best we can to 
get it done quickly, expeditiously, and get an answer to this 
question so we can have a President of Afghanistan who can be a 
partner.
    And so, if we can manage this through the timeframe that we 
think that is going to take. If it goes much beyond, let's say, 
mid-September, then we are starting to get into a little 
tougher situation in order to be able to do an orderly 
withdrawal by the end of the year.
    Now, we still will have a SOFA with them, so there is, you 
know, it is not like the end of the world. But we have placed 
as an end point the end of this year that we will have to be 
out of there if we don't have a BSA.
    Mr. Barber. Thank you.
    Admiral Winnefeld. And a BSA, more than anything else----
    Mr. Barber. Thank you.
    Admiral Winnefeld. The BSA is a statement of partnership 
from the government of Afghanistan.
    Mr. Barber. All right. My time is up. Thank you, gentlemen.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    I would like to thank all three of you for being here. My 
appreciation of what you are doing is very personal.
    Admiral, one of my sons is serving in the Navy today. And 
then I am very grateful--I served representing Parris Island, 
Marine Corps Air Station, Beaufort Naval Hospital, and so, I 
know firsthand the extraordinary troops.
    And I appreciate, Secretary Work, your pointing out the 
extraordinary success of our troops in serving in Afghanistan.
    My youngest son just returned--he is an engineer with SUTA 
[Split Unit Training Assembly] Army National Guard--from his 
service for a year in Afghanistan.
    My former National Guard unit, the 218th Brigade, served 
there. So, I know and I have seen--I have been there 12 times--
what is being done for the people of Afghanistan, which is 
really to protect us, because that is--of course, it was from 
the caves--people need to remember, it was from the caves of 
Afghanistan that Osama bin Laden planned the attacks on the 
United States, September 11th, 2001.
    With that said, I am equally concerned about the reduction 
in end strength of the Army and Marine Corps. And we have 
learned recently about the management situation on this--that 
there are troops in Afghanistan that have been informed that 
they are being separated from the Army.
    The media has said there are soldiers are receiving pink 
slips. It is wrong that you have troops serving overseas 
receiving these notices and they have to think about transition 
to civilian life--transition back home. I just--surely 
something is being done to address this.
    Admiral Winnefeld. Very important point--and that is 
keeping faith with our force as we draw down. Because of the 
budget pressures we are under, we don't have a choice; we have 
to get smaller. That is a fact that we cannot circumvent; the 
question is can we do it in a compassionate way.
    Mr. Wilson. Right.
    Admiral Winnefeld. And I may be wrong here, and I would 
have to consult with Ray Odierno, but Ray has been--and Jim 
Amos both with our ground forces have been incredibly 
considerate and compassionate, trying to make sure that we do 
this without yanking the rug out from underneath our troops. 
So, I don't believe that anybody is being told to leave before 
the end of their enlistment. They at least have the 
predictability of fulfilling their enlistment. But I would want 
to check to make sure that that was accurate.
    But, again, it--and we are doing everything we can to 
support their departure from the military so that they have a 
successful transition into civilian life when it has to happen. 
But there is no question that we have wonderful young men and 
women in this country who are going to want to serve in the 
United States military who are not going to be able to do so.
    Secretary Work. And sir, if I could just say--this goes 
back to the chairman's I think very good point at the beginning 
of the hearing--the President does not want to get down to the 
sequestration level. He has made that very clear.
    If we go down to the sequestration level, the number of 
troops that we would have on Active Duty would be even much 
smaller than what we are planning for, which is at $115 billion 
above the BCA [Budget Control Act] caps over the course of the 
fit-up. So, your point is, I think, spot-on.
    If we go to the BCA levels, then it becomes even more 
hard--it becomes harder to keep young men and women who want to 
serve their Nation in uniform because we have to get smaller, 
as the vice chairman said.
    Mr. Wilson. Well, we want to work with you. And we actually 
even want to work with the President.
    But it should be noted that it was the President's plan, 
defense sequestration, according to Bob Woodward, in his book. 
And so, this needs to be addressed.
    I am also concerned, Secretary Work, you stated and somehow 
the American people believe that the war is ending. I believe 
that we are in a long-term global war on terrorism.
    We know that it began out of caves in Afghanistan September 
11th, 2001. But additionally, we have particularly, in the last 
year, Doctor Fred Kagan of the American Enterprise Institute 
has brought to our attention that Al Qaeda terrorists have 
spread across North Africa, the Middle East, Central Asia; that 
is in the last year.
    Additionally, we know that in the last month, the 
extraordinary city of Mosul and significant parts of Iraq have 
been seized by Al Qaeda operatives and their allies.
    Really, they are trying to accomplish their goal--death to 
Israel, death to America. The American people need to know--we 
are in a long-term war.
    So, what is your view about the global war on terrorism?
    Secretary Work. Well, sir, I see the point. I did not mean 
to--what I meant to say is that our combat operations mission 
in Afghanistan would end at the end of the year, but we still 
have a lot of hard work with our Afghan partners to get them 
together.
    And I also agree that the situation in the Middle East, the 
situation in the Western Pacific, the situation in Eastern 
Europe--all of these things are of major concern to Secretary 
Hagel and the Joint Chiefs and the Counterterrorism Partnership 
Fund really is designed to get after that--the global fight 
against terrorist networks.
    Mr. Wilson. Thank you for your----
    The Chairman. Thank you.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Gentlemen, one of our principal responsibilities here as 
Members of Congress and especially in this committee is to 
conduct rigorous oversight of defense programs and policies.
    Especially concerned with the Counterterrorism Partnership 
Fund proposal under OCO funding. I support the larger strategy 
for this money, but I am also very, very concerned about its 
specifics.
    My understanding is that to increase flexibility, the 
administration wants CTPF funds to be available for 3 years and 
to be able to transfer them to any DOD account or to a 
specified State Department account or to transfer the money 
between the two departments. And these monies could be spent 
anywhere overseas.
    This seems like a lot of leeway that really hampers 
Congress' oversight mission. Mr. Work and also Mr. McCord, if 
you could answer that aspect about--it seems this has become 
yet another slush fund where you can just transfer it between 
accounts without accountability and you can transfer it even 
between departments and you are asking for $5 billion, which 
seems like a large amount of money to have that little 
oversight on.
    Secretary Work. Ma'am, again, we do not consider this a 
slush fund. We want to work with Congress to provide us 
flexibility in authorities that we already have to respond to a 
very, very fast-moving situation--generational change in the 
Middle East with all sorts of unintended problems or unexpected 
problems.
    I do not believe that we transfer money to State, ma'am. I 
think it is only within DOD accounts.
    Secretary McCord. That is correct. That was discussed in 
various drafts as we went through with the administration how 
to propose. In the end, what we proposed was that we would have 
a fund for ourselves and State would have theirs.
    But the NSC [National Security Council], as the deputy 
described, NSC and OMB would be in conversation with us about 
funds executed from our fund or theirs that would--for looking 
for consistency of purpose and things like that. I would also 
just add that the transfers would only occur--when we 
transferred money, we would then come to the committees, as we 
have done in the past with things like 1206 with the 15-day 
notice and wait.
    And we feel like this procedure has been fairly well-
established on things like the Afghan forces and on 1206 
before, of working with the committees to explain what we are 
trying to do and letting you see them.
    So, it is at the point the money would leave the fund and 
go to a particular place for execution that we would be 
bringing it to the committees.
    Secretary Work. And just wanted to follow up, ma'am, that 
we would have to go to OMB and NSC and we would say this is 
what we would like to do. We would have to get their oversight 
approval and then we would have to come to Congress and give 
the 15-day notification and wait.
    So, we do not believe it is a slush fund that will allow us 
to just go willy-nilly. We think there are going to be all 
sorts of checks and balances.
    Ms. Duckworth. Okay. On the portion of the OCO request that 
provides provision for Syria, a few things stood out to me. I 
understand that $1 billion has been preliminarily allocated for 
the Syria Regional Stabilization Initiative, and $500 million 
of that is to provide assistance to moderate elements of the 
Syrian opposition, including proposed authority to train and 
equip and vet elements of the Syrian army opposition.
    Admiral, can you speak a little bit to, and perhaps 
clarify, the details in terms of the types of training, the 
equipment to be provided, the number of fighters that would be 
trained? Who is going to train them? Is it us, our allies? 
Where are they being trained? How are we vetting these 
fighters? And what type of equipment are we giving them?
    Admiral Winnefeld. Unfortunately, and by the way, thank you 
for your service.
    Unfortunately, a lot of that is classified and I wouldn't 
be able to talk about it in a hearing like this. But I would 
say that we are coming together on the construct of a plan that 
would train moderate oppositionists in the country of Syria. We 
would train them outside Syria, obviously. I can't get into 
where we would do that.
    We would provide them with weapons, intelligence, logistic 
support, military advice. And they would conduct the insurgency 
struggle and also counter ISIL potentially inside Syria.
    And I could be happy to sit down with you privately and go 
into more detail, particularly as we get towards a decision on 
that. I want to make sure the President has his decisions based 
on this to decide what it is--how he wants to configure this. 
But we do have a very good gelling together of a plan to do it.
    Ms. Duckworth. I would hope that you would be--thank you 
for offering to be available to brief the plan. And I hope that 
that would be available to the entire committee, or at the very 
least the committee leadership on a classified basis, I am 
sure.
    Also, I am very concerned with making sure we maintain 
oversight to make sure that any armaments we transfer to 
moderate rebels doesn't end up in the hands of folks that are 
not friendly to us.
    I am out of time. Thank you, Mr. Chairman.
    Mr. Thornberry [presiding]. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Secretary Work, Admiral Winnefeld, thank you for being 
here. I appreciate your attempt to answer questions that I 
think perhaps may be unanswerable at this point, which is part 
of our concern.
    I want to associate myself with Ms. Duckworth's comments. 
The reason why people are concerned about this being a slush 
fund is because these are very large numbers and the detail is 
lacking. But they are concerned not just because of the concern 
of waste or that you may be ineffective in addressing serious 
issues. It is the issue of that we want to know what you are 
going to do because we are concerned about the outcomes here, 
not just the outcome of spending, the outcomes of what you are 
trying to accomplish.
    And that brings me to the European Reassurance Initiative. 
I am obviously very supportive of the European Reassurance 
Initiative when you look at the backdrop of what Russia has 
been doing. I believe the administration has been pursuing a 
false narrative with Russia that they are not an adversary. And 
Russia obviously has declared itself an adversary.
    But what we learned from General Breedlove with the new 
aggressiveness of Russia, both in its military posture and its 
actions, is that it has undertaken a number of snap exercises 
on the border of some NATO countries, and certainly Ukraine, as 
we have seen in Ukraine, that developed into actually an 
invasion force.
    So I am concerned that, one, the whole fact that we need a 
European Reassurance Initiative is because the operational 
funds for our presence in Europe have been cut too much. And 
two, there has been a lack of recognition of really the threat 
of what we were facing.
    Admiral Winnefeld, could you provide us some additional 
detail as to what you see? For example, has General Breedlove 
given you details as to what types of exercises and initiatives 
would occur here? He has talked about a lack of readiness on 
the part of our forces and European forces if Russia should 
continue its aggressive stance.
    And Secretary Work, you indicated that these funds were 
temporary. I don't--surely you don't believe that Russia's new 
posture is a temporary one, so hopefully you mean it is 
temporary in that you would need these funds to be incorporated 
into larger spending--sustained larger spending in the out-
years. If you could explain that.
    Admiral.
    Admiral Winnefeld. A couple of things. First of all, I 
think it is important to remember that the base budget for the 
DOD was submitted before any of this happened. And so this is 
essentially trying to recover from that, quite honestly, that 
there are initiatives we need to do in order to support 
particularly our Eastern European partners who are a little--
not quite as strong as some of our Western European partners 
from a defense perspective.
    General Breedlove has already done a large number of 
things, and I am not going to eat up the clock by describing 
all of those, but it is significant force movements that we are 
taking out of hide with Air Force movements from Italy into 
various countries to support them with company-level training 
and the like.
    In terms of the ERI initiatives, though, they would do a 
number of things. An armored brigade combat team presence, 
which is quite expensive, we would be able to maintain that for 
a while longer; live deployments in the Black Sea; more Baltic 
air policing; deploying forces to train with Moldova, Georgia; 
a few more NATO exercises; increasing some of the training 
range capabilities and training sites in Bulgaria we would be 
doing; weapons storage at Camp Darby in Italy, upgrading that; 
and a number of other increased activities across Central and 
Eastern Europe.
    And you are correct. I think some of those are actually 
going to have to be enduring. We are going to have to fold 
those into perhaps next year's base budget submission. But some 
of them, as the deputy secretary I think has pointed out in 
other testimony, are 1-year type things in that you would 
upgrade a facility, for example, a prepositioning facility that 
is something that would be a one-time expenditure. I think that 
is where we were coming from in terms of short term.
    Mr. Turner. Secretary Work, so you would agree that this is 
not going to be a temporary? And by the way, you should 
probably rename this, instead of European Reassurance 
Initiative, the Responding to Russian Aggression Fund instead.
    But Secretary Work?
    Secretary Work. Well, sir, your overall point, we are going 
through European infrastructure consolidation right now that 
will not take out any further forces than were already in the 
baseline plan. As the vice chairman said, this was to react to 
a situation on the ground in Eastern Europe.
    Mr. Turner. But you believe this is going to have to be 
sustained, right? You don't see the Russian aggression, their 
current posture being a temporary circumstance? You do believe 
that this fund is because we have cut too far and we have to 
reinvest?
    Secretary Work. Well, what we will do, sir, is in the fall 
review, we will readdress this as part of a broader look at our 
portfolio and take this in----
    Mr. Turner. Well, this is a yes or no question. Do you 
believe this circumstance to be temporary, that it will not 
require additional funding in the future?
    Secretary Work. The ERI, I am not certain we would ever 
come back in the OCO, but I agree with you that what is 
happening in Europe will cause us to look over the longer term 
and what our investments will need to be.
    Mr. Turner. Thank you, Secretary Work.
    Thank you, Mr. Chairman.
    The Chairman [presiding]. Thank you.
    Ms. Gabbard.
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, for your service and for being here.
    I have a couple of questions with regard to the 
Counterterrorism Partnership Fund, but just first want to 
comment on why there is so much hesitation here I think from 
many of my colleagues and myself about the lack of detail.
    Mr. Work, you commented earlier--made a comment that struck 
me as you spoke about the need for flexibility in funding for 
Iraq, that it is your and the administration's position that it 
is agreed that we must do something, but we are not sure what.
    And I think that assumption is what is troubling, that it 
should not be a given. As we look at the different conflicts 
that are occurring whether it be in Iraq or in other places, 
that we assume that we must do something because sometimes the 
answer to that question of what is in the best interests for 
us, the United States, the American people, the answer may be 
to not take action in that particular situation.
    So that assumption that we must do something, in particular 
with what is happening in Iraq right now, is where many of us 
are concerned about writing this kind of blank check to fund 
that something, if that something is not the right course of 
action to take.
    With regards to the Counterterrorism Partnership Fund, I 
think Congresswoman Duckworth asked a few questions, but I am 
wondering who are the targeted recipients of that funding, both 
in Syria and Iraq? And what are the objectives for providing 
that support? And the follow-on question to that is: Why is 
this requirement part of this undefined transfer fund and not a 
very direct request of Congress to provide assistance?
    Secretary Work. Again, ma'am, talking about the specifics 
of the Syrian aspect of the fund, we wouldn't be able to get 
too much into in an open hearing.
    Ms. Gabbard. Is the intent of this funding to assist rebel 
forces as they seek to overthrow the government? Or is it to 
target terrorist threats?
    Secretary Work. Both, ma'am; $500 million would be 
associated with our partners around the area, so that includes 
Lebanon and--excuse me--Jordan, Lebanon, Iraq, and Turkey; and 
then $500 million would be to provide training and support to 
vetted Syrian opposition units. To your initial question, I 
agree with you that the President may decide not to do 
something and that is--the purpose of this is to provide us the 
flexibility, when and if we do. And again, we have tried to 
build in the oversight so that we would not automatically start 
spending money without congressional understanding of what we 
were doing.
    Ms. Gabbard. Okay. Thank you. I have got one last question 
with regards to the CTPF funding and how that allocation of 
funds will be determined by region and at this juncture which 
COCOM [combatant command] stands to benefit the most from this 
fund. How is that determination made?
    Admiral Winnefeld. The lion's share of really--is where is 
the threat coming from. And a lion's share of the terrorist 
threat is coming from the Central Command region. So when you 
consider Syria, part of Central Command; if there is support we 
are going to provide within Lebanon or Iraq or elsewhere, that 
is all in Central Command area of responsibility. But there is 
Northern Africa, where there is a considerable terrorist threat 
and Eastern Africa. Of course, that is AFRICOM [Africa Command] 
area of responsibility. So those are probably the two principal 
areas. But that is not to rule out that terrorist threat that 
emanates from some other region could not be addressed by 
using----
    Ms. Gabbard. And how do we ensure that these funds don't 
end up being duplicative to other efforts that are being 
executed or pursued by Department of State or other agencies?
    Admiral Winnefeld. We have a good interagency process where 
we talk about our contingencies and the planning that we work 
through in a particular area. We have a very robust group that 
looks at Africa, a very robust look at Al Qaeda in the Arabian 
Peninsula, same thing with Eastern Africa, Al Shabaab in 
Somalia. And there is a lot of de-confliction that occurs in 
that forum. And the intent, of course, is to have complementary 
efforts, not stove-piped or isolated efforts. And so I think we 
have a fairly good process for working through those 
challenges.
    Ms. Gabbard. I guess it is--I just hope that in both 
departments that the feedback from folks on the ground, 
especially is being welcomed and heard, because oftentimes, as 
you know, some people can sit in a room up here without 
understanding exactly what is happening on the ground.
    Admiral Winnefeld. It is a good point. And the lion's share 
of those meetings we have a VTC [video teleconference] with the 
combatant commander actually having a representative and, you 
know, participating in the meeting.
    Thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank, Mr. Chairman. And Secretary Work, 
Secretary McCord, Admiral Winnefeld, thank you so much for 
joining us and thanks for your service. I want to begin by 
asking a question to all of you all. Looking at the OCO budget 
as it is presented, there is a heavy emphasis on post-
Afghanistan transition. Can you tell me where in the budget are 
we emphasizing the reset of our forces, specifically those 
outside a weapons acquisition?
    Secretary Work. OCO includes $9.2 billion for reset. We 
expect a future OCO request to have additional money. As we 
have been saying all along, we believe that the reset of our 
equipment will take a couple--2 or 3 years after we cease our 
combat operations in Afghanistan. We are in the process of 
bringing back an enormous amount of gear that some of it has to 
be refurbished, upgraded, and we have to determine whether we 
need to get rid of it or replace it. So $9 billion in the OCO 
is for that.
    Mr. Wittman. How about specifically for training? I 
understand the equipment reset and the equipment going to 
depots, but how about on the training side?
    Secretary Work. There is nothing in the OCO, as far as 
training of forces back in the United States. That has not 
normally been included in the OCO request. So that is included 
in our base budget.
    Mr. Wittman. So you believe the base budget adequately 
addresses that and fully executing the reset can be 
accomplished in the base budget?
    Secretary Work. I would say, sir, that readiness of our 
forces and our future readiness, we all recognize that we are 
going to go through a 1- or 2-year trough in readiness, as we 
reset the force and as we come out of Afghanistan. So it is 
tight. It is extremely tight. And if we go to the BCA levels, 
it will be even tighter. And the chairman has already said he 
believes the risks of going to the BCA level would be 
unacceptable.
    Mr. Wittman. Well, then put this in context, what are the 
risks of not fully executing a reset, not just the equipment, 
but the training side? And what does that mean for us, whether 
it is the capability of our forces or making sure that the 
industrial base is there to make sure we have that capacity 
necessary going forward? Give me your perspective on what 
happens if we don't fully execute the reset in its entirety?
    Admiral Winnefeld. It goes without saying that the ability 
to reset results in the deployability of your force for future 
conflicts. We have a very good understanding of what various 
contingencies around the world could require, whether it is a 
Korea contingency, Iran contingency, you name it.
    And that--all those--that calculus went into the 
formulation of the budget request for next year and indeed, 
into the strategy that accompanies the QDR [Quadrennial Defense 
Review]. Can you defeat one adversary while denying the 
objectives of another?
    And as the deputy secretary pointed out, it is very 
fragile. It is extremely fragile right now and it will be for 
several years while we reset the force, while we recover our 
readiness.
    By the end of the 5-year plan, the way--with the 
President's budget request, which is above sequester, we 
believe that we will be there and as we have described, you 
know, with moderate but on the high band of that moderate risk 
as I said in my QDR testimony.
    Mr. Wittman. Let me ask under this scenario: What happens 
if after this year, OCO goes away and then on top of that, we 
have sequester?
    Can you give me an indication about the risk and the 
scenarios we face looking at those two situations?
    Admiral Winnefeld. I will go even further than that.
    If we have--if we lost OCO next year--because it is going 
to take us a while to recover, particularly to reset the 
force--if we just lost it completely next year and if we go 
back to sequester and if we don't get the compensation savings 
that we are asking for, and we are asked to retain systems that 
we believe that we need to divest, if all of that comes 
together then you will have a broken force at the end of the 
day.
    It won't just be a hollow force; it will be a broken force. 
And we will not be able to execute even close to what the 
strategy asks us to do.
    Secretary Work. I fully endorse those comments, 
Congressman.
    Right now, if you take a look at the defense industry, the 
reason why I think they are doing so well in terms of their 
share prices is they have been ruthless in cutting their 
overhead.
    We have not been able to do a BRAC [Base Closure and 
Realignment]. We haven't been able to do some of the 
compensation savings----
    Mr. Wittman. Secretary Work, I am limited in time.
    Let me go to this. I understand the technical explanation 
of that but give us an illustration about what that risk would 
mean either to the Nation or to our men and women that serve, 
just a simple illustration so people can understand that.
    Admiral Winnefeld. If we were--and again, I want to stay 
out of classified----
    Mr. Wittman. Sure.
    Admiral Winnefeld [continuing]. Contingency pieces.
    But if we were to have a major contingency somewhere in the 
world, we would not be able to respond as fast or as robustly 
or with troops that are trained to the task.
    And with that comes blood, it comes time and it comes 
additional cost.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    The Chairman [continuing]. That you are planning for $100-
plus billion over BCA. And you both now just addressed again 
the problem that we have with sequester, but that is the law.
    I mean, I am violently opposed. I have talked about it ad 
nauseum. But it still is the law. So I hope you are also 
planning to follow the law.
    And then the statement you just made, Admiral, about the 
broken force, we have got 6 members of the committee here in 
the room out of now 62 and most Members of Congress don't have 
any concept of what you are talking about.
    I hope that you can give us what you mean by a broken 
force. I understand that we don't--maybe we need to have a 
classified session on just that because something is going to 
have to happen to inform Congress to the point where they get 
rid of sequester next year. Because if they don't, I don't 
think any of us want to see the consequences.
    So you need to speak up more often. Even I still need to 
speak up more often. But we need to have some information, some 
anecdotal or some--something that people can relate to and 
understand that are not on this committee, that don't deal with 
this on a daily basis.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    When I was a kid in Arlington, Washington, you know, we 
didn't have smartphones then--of course, no one had smartphones 
then--so we would make up games.
    We had a game we played outside. I am one of eight kids so 
a lot of kids, a lot of neighborhood kids. We played a game 
called dogpile.
    It is a very simple game. You picked one person to be 
``it''; they ran away from the group and you jumped on them and 
you dogpiled on them and then it was someone else's turn, just 
one big dogpile.
    So I am going to play dogpile on this terrorism fund 
because----
    Admiral Winnefeld. Should we try to run away?
    Mr. Larsen. What is that?
    Admiral Winnefeld. Should we try to run away?
    Mr. Larsen. No, you are safe there. You are safe there.
    Because we have developed 1206 and the Global Security 
Contingency Fund--and this argument about being a slush fund or 
not, I don't really buy that. I don't agree with folks who are 
accusing that.
    My question is the need. If we have 1206, we have the 
Global Security Contingency Fund, we are using those, what 
makes this counterterrorism fund so different?
    If you have to jump through all the interagency hoops that 
you have laid out and all the agreements in order to implement 
spending out of this proposed fund--you are already jumping 
through a lot of interagency hoops--what makes this so 
different than what we have already done? Because you are not 
doing a very good job of explaining that.
    Secretary Work. Sir, we had a debate.
    One of the ways we could have come forward is to say, ``We 
would like to raise the cap in 1206 this much, raise the cap in 
1207, 1208,'' and that would have presupposed that we would 
have known exactly how we would have used those authorities 
over the course of the next year.
    What this is, is it provides us with the flexibility to 
come to the President and Congress and say, ``We would like to 
exceed the caps in these particular authorities that Congress 
has already given us due to things that are happening right now 
in the world.''
    That is what is different. This provides us with a little 
bit more flexibility.
    Again----
    Mr. Larsen. So what about the existing authorities and 
their flexibilities? Speak to that. What about them is so 
inflexible?
    Secretary McCord. I would just cite two examples.
    I think both for legal reasons and for--as a matter of 
national policy, Syria is of such import that coming to 
Congress for a positive authority like this is the right answer 
in addition to the fact that there are particular things like 
working with irregular forces that probably are not doable 
under just straight 1206-type authorities that we have today.
    Another example, we--I think all of us believe it has been 
a good course of action for us to support what the French are 
doing in Mali. But because they are not a developing country, 
we are very limited in what we can do to support them.
    And this would allow us to exceed those type of caps that 
we have on helping countries, even--it is still cost-effective 
for us to do so. It is a good idea for us to do so but legally, 
we are constrained. And just having 1206 as it stands today or 
the other authorities we have today are not enough to allow us 
to be more robust on that effort.
    Mr. Larsen. Go ahead, Admiral.
    Admiral Winnefeld. I was going to say, this is about two 
things: It is about quantity and flexibility.
    And we are trying to establish a sustainable 
counterterrorism framework wherever we need it around the 
global, principally, as I mentioned earlier, in the Central 
Command, in Africa Command areas of responsibility but it could 
be elsewhere.
    So essentially, we would like to have more in the resource 
area in order to be able to do that.
    Now the question, as you point out, is where do you put it?
    And we could put it in what we anticipate to be the right 
categories and we are always wrong.
    And for example, this year, we are really running out of 
1208 money far quicker than anything else. But we are stuck.
    So what would be, you know, an alternative would be to 
plus-up the funds to the quantity that we think we need and 
then give us the transfer authority, again, with consultation, 
with Congress, 15 days, to be able to freely move among those 
funds so that if I need more 1208 and I have got some extra in 
1206 then we can just move the money.
    But it would seem to us to be more reasonable to just have 
this fund here, which we consult with Congress on and that if 
we need to plus-up 1208-like activity then we can do it.
    It is really a matter of having the flexibility to act 
quickly to get things done around the world in favor of a 
sustainable CT [counterterrorism] framework.
    Mr. Larsen. Yes, I just--I know we are jumping on you about 
8 to 9 percent of this total request.
    But we put a lot of work in the last decade into developing 
1206 and the security fund. And now you need this and it just 
seems a little backwards is all.
    So thanks for trying to explain a little better for me. I 
appreciate it.
    I yield back.
    The Chairman. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    And I want to get to the reset in a second. But Admiral, 
certainly, I have a tremendous amount of respect for you and 
you just used the term, if I may, ``consult with Congress.''
    Was there any consultation with Congress prior to the 
action that was taken in Libya?
    Admiral Winnefeld. You are talking about the----
    Mr. Scott. I am talking about the action to take Gadhafi 
out.
    Admiral Winnefeld. Yes, I wasn't here at the time, so I 
couldn't answer that question completely.
    Mr. Scott. With due respect to all of you, and I think this 
is where your problem is coming with this, including with 
myself, I got a message 5 minutes prior to Fox News reporting 
that we were sending Patriot missiles into Libya. I would have 
objected to the action. I think that the northern portion of 
Africa was probably more secure then than it is now.
    And as I read through the statement, it says, and I will 
quote--``as part of the Syria Regional Stabilization 
Initiative, we are seeking $500 million to train and equip'' 
and it goes from there, ``this effort represents a critical 
long-term investment to build Syrian capacity.''
    This country would be in a war in Syria right now, had this 
Congress, including myself, not objected to the action that the 
President wanted to take.
    I maintain that we were right to not get involved in Syria. 
And my concern is that if we pass this, if the President had 
this authority a year ago, we would be involved in a war in 
Syria right now.
    And the term ``long-term commitment,'' Americans are tired 
of being at war. I know those of you who serve in uniform are 
tired of it. I hear it from the soldiers that I represent. We 
have been over there. Desert Storm was almost 25 years ago. 
Desert Storm was almost 25 years ago.
    We have spent billions, if not trillions. And look at what 
is happening in Iraq right now.
    And so, I--it seems to me that the administration's 
position is that they are gonna ask forgiveness instead of 
permission. They did not consult with us on Libya. I do not 
have any reason to believe that they would change and consult 
with us on this, going forward. And I have serious reservations 
about the ability to support that, especially with regard to 
the terms that we continue to use, a hollow force, a broken 
force. We are laying off United States soldiers.
    And I want to get, real quick, to the reset of the 
equipment and the sequester. And my primary concern is that if 
we are not able to repeal the sequester, which I voted against, 
what will happen to our depots and what impact will that have 
in our depots providing the necessary services to reset the 
equipment?
    And are they prepared and resourced to reset the equipment 
if the sequester goes into effect?
    Secretary Work. If a sequester goes into effect at the full 
level, and/or if OCO drops down, then we would have to do a 
total relook at our strategy; we would have to do a total 
relook at our program and our budget. We would try to maintain 
the depots, to the greatest extent that we could. But all of 
our efforts to keep a balanced force, between personnel costs, 
investment cost, MILCON [military construction], and R&D 
[research and development], it would be extremely difficult.
    So, sir, I can't give you an exact prognostication on what 
would happen to the depots, but every single aspect of our 
force would be under severe stress.
    Admiral Winnefeld. Yes, I couldn't agree more, that the 
less work you have for the depots, the less people are employed 
by the depots, the more fragile they become, and the like.
    So we are very cognizant of that. I know that Frank 
Kendall, who is our AT&L [Acquisitions, Technology, and 
Logistics] director, very cognizant of that. And it is 
something we have got to manage very carefully. We only have a 
certain number of resources we can apply.
    To the first part of your question, I do want to briefly 
address it, if I could. And that is, there is a unanimous view 
inside all of the decisionmaking apparatus I participate in 
that we are not gonna put boots on the ground. This is not 
gonna be an Iraq or an Afghanistan war in Syria. It is not even 
gonna be a war.
    What we are talking about is not walking away from a 
potential ungoverned space where a terrorist activity can 
operate to threaten the United States.
    Mr. Scott. Admiral, we use the terms ``hollow'' and 
``broken.'' There is only so much that the United States can 
do. And we have no OCO funding after 2015. If we don't have OCO 
funding, what would happen to our depots and our reset of the 
equipment?
    Admiral Winnefeld. If you don't have the OCO funding at 
all, then, as the deputy secretary mentioned, you know, $9 
billion of this is for reset. And a substantial part of that 
reset, almost all of it, is to the depots to reset vehicles and 
other equipment, helicopters and the like.
    If we don't have that money, then we can't spend it in the 
depots.
    Mr. Scott. Thank you, gentlemen.
    The Chairman. Thank you.
    Mr. Smith.
    Mr. Smith. I thank you, Mr. Chairman.
    I want to drill down on two issues--Syria and then the 
contingency fund that we are worried about, or the--not 
contingency--combating terrorism partnership fund.
    I think, you know, I would certainly agree that, you know, 
that flexibility is important. I mean, if you look at what has 
happened with Al Qaeda, and this has been the big transition 
from, okay, they are a set force that is plotting and planning 
against the West, let's go hit that group and before they hit 
us, basically, and we did that fairly effectively and, you 
know--well, we did it too late in Afghanistan, but once we did 
it, we did it effectively. We have been doing it in Pakistan 
and doing it in Yemen.
    But now, Al Qaeda has sort of spread. I mean you have got 
ISIL, which is, you know, they have decided they are not 
affiliated with Al Qaeda, but that doesn't make them any less 
of a threat. It has become a battle against the ideology, and 
that ideology can pop up in a bunch of different places, and 
sometimes it is, you know, and the threat is different. Boko 
Haram is different from what is going on in Libya, is different 
from what is going on in Somalia. You know, how do you evaluate 
those threats and respond to them?
    And our authorities do have you a little boxed in in terms 
of how you do that.
    So I get that. I mean, the problem is that as my staff 
reads what has been put together here, to be honest, they are 
more knowledgeable about the stuff than I am, if you wanted to 
take this money and use it to refuel an aircraft carrier, there 
is nothing in this language that stops you from doing that.
    So we--I mean, first of all, do you disagree with that? And 
second of all, if not--we just--we have got to fence it in 
somehow. And from my understanding is, it is not terribly well-
fenced. And that is a structural problem, and it is also a 
concern in that it wasn't as well thought out as it should have 
been before it was put into this.
    So help me out. You know, is it wrong to say that you could 
spend this to refuel an aircraft carrier? And, if so, what is 
the language in there that clearly restricts that?
    Secretary McCord. Well, certainly, as you know, that is not 
our intent or design. We don't think the language is that 
broad. The----
    Mr. Smith. Let me say right, if I could, your intent and 
your design are, I am sorry, irrelevant to this conversation. 
It is a piece of legislation, so we want to know what is in the 
legislation. So let's move past that first point, and you were 
on to the second one.
    Secretary McCord. Right. The second point--and I assume you 
are particularly talking about the new fund.
    Mr. Smith. Yes.
    Secretary McCord. Yes.
    Mr. Smith. I mean, it is $5 billion.
    Secretary McCord. Right.
    Mr. Smith. And the way this place works is, you know, $5 
billion has parameters or no parameters, you know, we approve 
it, it goes up to you guys. And then you live within those 
numbers.
    Now, I have been around here long enough to know that that 
is far from a black and white issue. There is a whole lot of 
gray in there, and people operate in the gray.
    But at least I would like to start out with some kind of 
parameters.
    Secretary McCord. Right. Certainly our counsels stand ready 
to work with yours. We stand ready to work with you and your 
staff if this is not drafted the way that you think it should 
be. But, first of all, there is a purpose to the fund, and 
refueling an aircraft carrier, I don't really think fits the 
purpose, but more importantly----
    Mr. Smith. Okay, again, I am sorry----
    Secretary McCord [continuing]. Language----
    Mr. Smith [continuing]. That is a troubling way to put it. 
You don't really think. Tell me. You wrote the darn thing. We 
are up here.
    Okay, here is the sentence, it says this, that clearly 
restricts that and clearly wouldn't allow that. I am not 
hearing that from you.
    Secretary McCord. The concern that we have heard in the 
briefings our staff has done is with the notwithstanding 
phrase. And the notwithstanding phrase pertains to amounts and 
recipients for things like building partnership. We don't 
interpret that as notwithstanding all laws, as has been, I 
think, raised as a concern at some staff briefings. We think 
that we have identified what we are trying to waive or 
notwithstand.
    Mr. Smith. Right. And, you know, I mean, the language, I 
just have it in front of me here, basically, ``such funds shall 
be available under the authority provided by any of the 
provisional law to enhance counterterrorism and crisis response 
activities undertaken by the armed forces and to provide 
support and assistance to foreign security forces, irregular 
forces, groups or individuals to conduct, support or facilitate 
counterterrorism crisis response activities.''
    I mean, again, you know, well, we are sending an aircraft 
carrier into the Gulf because, you know, we are worried about 
what, you know, terrorist groups are doing.
    I am telling you, this is really, really poorly drafted in 
terms of narrowing it down to a specific set of purposes.
    So I have made that point, won't keep making it. I will 
just say, (a) this has got to be fixed; (b) it is really not 
good that it came to us in this form in the first place. And, 
you know, not to echo Mr. Scott's opinion, because I disagree 
with a lot of what he said, but that is why it never hurts to 
talk to Congress. We could point these things out, other than 
in a public hearing and work our way down to it.
    So let's just work on that piece of it, which brings me to 
the second point, and that is Syria.
    And this one really concerns me, and it concerns me because 
I think the policy is correct, all right? I think it is way 
past time that we got title 10, DOD involved in working with, 
however you want to describe them, moderate, non-Al Qaeda, 
sympathetic forces, to help them in any way we can.
    It is not--and the frustrating part is, and I know a lot of 
this is classified. We do know who they are. You know, every 
time this comes up, people say, ``We don't even know who we are 
talking about funding.'' We know, okay? We don't know all of 
them, but there is some number of people within Syria who are 
involved in the fight against Assad who are not sympathetic to 
al-Nusra, who are not sympathetic to ISIL, who we have been 
working closely with for a number of years now, okay?
    Is that number 100, 1,000, 4,000? I don't know, but there 
is some number of them unequivocally who exist and who have 
been getting the crap kicked out of them for the last couple of 
years because they are under-gunned, they are unfunded. The 
wack jobs have money coming in from all over the place. These 
guys have been getting it in dribs and drabs from us.
    We would like to open that aperture up just a little bit. 
And I think that is an incredibly important policy because if 
we don't do it, we are in a situation where all you have is 
Assad, Hezbollah, and Iran on one side, and Al Qaeda and worse 
than Al Qaeda on the other side.
    Now, that makes 100 percent perfect sense to me that we 
need to back these people. But it hasn't been well explained. 
You know, I had a colleague of mine who sits on the Defense 
Approps [Appropriations] subcommittee yesterday say they had 
the same briefing from you and you basically couldn't tell them 
what the fund was for or who it was going to.
    So we need to do better than ``it is classified so we 
really can't talk about it.'' I want you to sell this 
successfully, which means you have got to sell it, right? You 
have got to make the case: Here is why this is important.
    And so if you could sell us right now on why it is that we 
should be pumping money into these Syrian groups. Because I 
don't just agree with Mr. Scott that this is somehow equivalent 
to starting another war. I mean, there is plenty of--you know, 
there is plenty of distance between us sending in 100,000 
troops to Syria and us backing people who are already fighting 
there who are critically important to do what we are trying to 
do.
    But give us another shot here. What is the Syria money for 
and why is it so important?
    Admiral Winnefeld. Sir, I--there are two questions here: 
Why and how?
    And I think you have done a very artful job in the last 
couple of minutes describing the ``why.'' We have an ungoverned 
space. There are two problems, right? The ungoverned space in 
which groups like ISIL and al-Nusra are capitalizing. And 
without getting into classified information, indications are 
that they have the potential to not only create instability 
inside Syria, with the neighbors, and U.S. interests elsewhere 
in the world, to include potential attacks on the United 
States.
    So there is plenty of ``why'' on the ISIL and al-Nusra 
front side alone, much less the carnage that has been happening 
in Syria over the last few years because of what the regime has 
been doing. So the ``why'' I think is fairly solid.
    The ``how'' is the question, and in a classified hearing, I 
can't really discuss it in any kind of detail--and we are still 
frankly working through what are some fairly challenging legal 
issues, some fairly challenging partner issues, process 
issues--and by the way, partner issues outside and inside 
Syria.
    But we are congealing what I think is a pretty good way 
forward for this, that the amount of money we are requesting, 
or that we envision inside this request--the $500 million--is a 
pretty reasonable planning factor for what we would expect to 
do.
    Mr. Smith. And one part of the ``how,'' if I may offer the 
suggestion, the specifics of the ``how,'' you know, but right 
up front, you say, ``Well, what we are going to do is we are 
going to train and equip.'' Okay? Now, how we get to train and 
equip, that is going to be difficult.
    But that is where I think it goes off the beam a little 
bit. When you get to the ``how,'' you say, you know, (a) we 
can't talk about it; (b) we haven't really quite figured it 
out. That doesn't inspire confidence or support in a 
controversial plan.
    I would suggest better the ``how'' is we want to train them 
and equip them so that they are better positioned to fight. 
Then you can say, you know, how we do that, where we do that, 
we are working that out, but we do have partners, and we are 
confident it can happen. But if we don't better train and equip 
these guys, they are going to get killed and they are not going 
to be there. And that is what this money is for.
    Admiral Winnefeld. Right. So if I can repeat back for 
possible correction, you are exactly right. We do want to train 
and equip the moderate members of the opposition so they can go 
in there and do essentially three things. They can counter the 
more radical elements of the opposition who are targeting them. 
They can undertake to place the Assad regime under such 
pressure that they are not under right now, that would cause 
them to come to the negotiating table. And at the same time, 
they can defend themselves and their families.
    Mr. Smith. They can survive.
    Admiral Winnefeld. That is the intent. The precise details 
of how we do that, I just can't share right now.
    Mr. Smith. I understand that.
    I guess the final thing I will say is I know there is a lot 
going on in the world. I am painfully aware of the fact that 
there is a lot going on in the world. But if the White House is 
going to push a policy like this, they have got to fricking 
push the policy, all right?
    They can't just, you know, not say anything to us forever, 
you know, move into and then, well, here is $500 million we are 
going to--I mean, for the United States Congress to vote to 
authorize a train and equip mission for rebel forces is a big 
damned deal. And I think it is something we ought to do, but 
this is more not for you guys. I mean, this is more for the 
White House: Sell it. Because if you don't, there ain't no way 
we are going to pass it.
    Admiral Winnefeld. I couldn't agree with you more. This has 
to do, candidly, with clocks--a clock for putting the fine 
details on the approach here and getting it approved where it 
needs to be approved, and the congressional clock of when you 
need to have hearings and when we need to explain. Those clocks 
did not match up very well in this situation and I absolutely--
I am empathetic. I hate it, but it is what it is right now and 
we believe that eventually we will be able to consult with you 
and show you exactly what we are going to do with this.
    Mr. Smith. It is what it is--it has got to get better.
    I yield back.
    The Chairman. Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    Gentlemen, thank you all for being here today. It is really 
great to hear the questions and your testimony.
    I am just trying to reconcile in my head just some things. 
I know the enacted level for fiscal year 2014 OCO was $85 
billion, and this year's 2015 request for DOD is $58 billion. 
So that is about a $27 billion, $28 billion difference. So I am 
more interested, what missions are you performing in 2014 that 
you are no longer going to be performing in 2015 that would 
cause a $27 billion or $28 billion decrease?
    Secretary Work. Two areas--the drawdown of our combat 
operations in Afghanistan have been moving towards the end of 
this calendar year. So we will be moving down, which is one of 
the reasons why the amount of money in the operations and force 
protection line has dropped from $26 billion to $11 billion. So 
that accounts for almost $15 billion of the drop.
    The other portion is in theater because we are coming down 
in Afghanistan. And as the vice chairman said from the very 
beginning, a lot of this is indirectly support of that. That 
money has come down, in-theater support has come down from $24 
billion to $18 billion. So that is another $6 billion cut.
    So, it has to do with the drawdown of our combat 
operations, as well as the proportional drawdown of the other 
things that we are doing in theater.
    Mr. Palazzo. So, you would have us believe that the entire 
reduction is because of the drawdown of the boots on the ground 
in Afghanistan and related resources. Are you certain that 
there is no other missions that may be, in the area outside of 
Afghanistan, that are going to be reduced or cut or no longer 
considered?
    Admiral Winnefeld. I am not aware of any. Our presence in 
the Gulf is relatively stable. It is principally affected by 
the sequester and the readiness of our forces. And that 
presence is probably going to decrease over the coming years 
based on where the funding profile looks like it is going. But 
none of that has to do with the OCO piece of this.
    I don't know of any missions that we are cutting off 
because of the $26.7 billion decrease.
    Mr. Palazzo. As a follow-up to that, can you tell me what 
other missions OCO funds other than just Afghanistan?
    Secretary Work. The Joint IED Defeat Organization, the 
Afghan Security Force Fund, but that is obviously--as well as 
the Afghanistan Infrastructure Fund. That is separate from the 
monies that would support the operations of U.S. forces in 
Afghanistan. There is the Commanders' Emergency Response 
Program, or CERP, which was approved by Congress and we have 
been utilizing; unexploded ordnance removal; coalition support; 
Office of Security Cooperation in Iraq; reset; the temporary 
end strength increase for medical, as well as Army and Marine 
Corps.
    So all those things are covered right now.
    Mr. Palazzo. Okay. Go ahead.
    Admiral Winnefeld. I was just going to say that this year's 
OCO is essentially all Afghanistan. Now, there are subsidiary 
effects. If you have more force in the Arabian Gulf region, for 
instance operating airfields, strike aircraft operating out of 
those airfields, that go into Afghanistan, then there is also a 
deterrent effect elsewhere in the region.
    But the reason it is there and the money is for operations 
in Afghanistan.
    This request that we are asking for is a little bit 
different. We are asking for the $5 billion in the ERI and the 
CTPF money that would do things outside Afghanistan that would 
give us more flexibility in that regard.
    So I want to mention this year is different from what we 
are requesting for next year.
    Mr. Palazzo. Okay, so counterterrorism in Yemen deterring 
Iran, that is not in the 2014 OCO?
    Admiral Winnefeld. There are probably things inside the 
Arabian Gulf region that indirectly support those because they 
are there supporting Afghanistan.
    But the drone ops, for example, that we would be operating 
in a regional country that would support in Yemen would not be 
coming out of OCO.
    Mr. Palazzo. Okay.
    Looking kind of further down, I guess, beyond 2015, what 
kind of funding do you see being in OCO if this is just going 
to be Afghanistan and similar projects?
    Admiral Winnefeld. As we draw down our presence even more 
in Afghanistan, the Afghanistan OCO will continue--I would 
imagine if OCO continues as a fund, which we anticipate it 
would, it would be even smaller in the years following.
    And then the way we have constructed this request, we are 
opening it up to other areas of agility that we think we need 
to have for other types of operations around the globe that are 
contingency operations that would not be in Afghanistan.
    Secretary McCord. I would just add that again, our OCO 
request, we often use Afghanistan synonymously with Operation 
Enduring Freedom but OEF has always had a few parts like the 
Philippines that have been outside Afghanistan, per se.
    As the vice chairman says, one of the big questions, and as 
Congress reacts to the proposal we have made this time, is to 
broaden some of that a little bit.
    We have had limited operations on, say, the Horn of Africa 
that have been considered OEF. But we are going farther across 
Africa in this proposal with this new fund.
    And so how Congress disposes of our request, I think, will 
inform what we come back with next year as to what OCO looks 
like.
    Mr. Palazzo. Thank you, gentlemen.
    The Chairman. Well, we have been here for a couple hours 
and we have talked about a lot of things. But we haven't hit on 
Yemen, the Philippines, Horn of Africa in much detail other 
than just a broad ``Yeah, there will be other things to spend 
money on.''
    I hope that as we move forward and actually get into some 
legislation, try to get this thing done.
    Let's see, I think we are here for another week or so 
before we go, maybe 2 weeks before we go to the August break 
and then we are here a week or two in September.
    Time is running out quickly so we do need to get to this, 
need to get those questions answered and move forward.
    As you can see, there are bipartisan concerns with this so 
it is important to get it all worked out and get it right.
    Thank you very much for being here with us today. 
Appreciate your first hearing in these--two of you in this job. 
You did very well.
    Thank you very much. This hearing is adjourned.
    [Whereupon, at 12:18 p.m., the committee was adjourned.]

      
=======================================================================



                            A P P E N D I X

                             July 16, 2014

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 16, 2014

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 16, 2014

=======================================================================

      
                   QUESTIONS SUBMITTED BY MS. TSONGAS

    Ms. Tsongas. I am concerned that if we continue to fund every new 
operation with OCO, then we will never be able to end what was meant to 
be a ``temporary'' funding stream. Can you explain how DOD plans to 
transition to solely a base budget?
    Secretary Work. The base budget of the Department provides funds to 
organize, train, equip, and maintain the full spectrum readiness of the 
joint force. Other appropriations, such as the current OCO budgets, 
have historically been used to fund unforeseen operations, activities, 
contingencies, emergencies, and equipment reset beyond the scope of our 
normal base budget. As the demand for the use of military force remains 
high based on increasing global unrest coupled with major decreases in 
our budgets, the Department will likely continue to need contingency 
funding in some form of a supplemental for those activities over and 
above a normal base budget.
    Ms. Tsongas. In the past, DOD has developed weapon systems that are 
tailored for the wars in Iraq and Afghanistan. One example of this is 
the Battlefield Airborne Communications Node (BACN). Funding for BACN 
is once again contained solely in OCO. Combatant Commanders have stated 
many times that they want to keep BACN around after operations cease in 
Afghanistan. What is the plan to fund BACN once OCO funding has been 
removed? Will it be made a program of record, or will the Combatant 
Commanders lose another capability?
    Secretary Work. The Battlefield Airborne Communications Node (BACN) 
is comprised of a fleet of EQ-4B and E-11A airframes and operations are 
exclusively funded with Overseas Contingency Operations (OCO) 
resources. At this time, BACN is not a base-funded program of record 
and the Department intends to divest the EQ-4B and E-11A fleets if OCO 
funding is not available. Air Combat Command has evaluated options to 
create an E-11A BACN program of record, post conflict; however, 
sufficient funding is unavailable.
    Ms. Tsongas. I am concerned that if we continue to fund every new 
operation with OCO, then we will never be able to end what was meant to 
be a ``temporary'' funding stream. Can you explain how DOD plans to 
transition to solely a base budget?
    Admiral Winnefeld. The base budget of the Department provides funds 
to organize, train, equip, and maintain the full spectrum readiness of 
the joint force. Supplemental appropriations, such as the current OCO 
budgets, have historically been used to fund unforeseen operations, 
activities, contingencies, emergencies, and equipment reset beyond the 
scope of our normal base budget. We believe this is most logical and 
efficient way to fund these types of operations and activities because 
to properly anticipate them in the base budget could result in 
programmed funds that are never used if such contingencies do not 
arise. As the demand for the use of military force remains high coupled 
with major decreases in our defense base budgets, the Department will 
likely continue to need contingency funding in some form of a 
supplemental for those activities over and above a normal base budget.
    Ms. Tsongas. In the past, DOD has developed weapon systems that are 
tailored for the wars in Iraq and Afghanistan. One example of this is 
the Battlefield Airborne Communications Node (BACN). Funding for BACN 
is once again contained solely in OCO. Combatant Commanders have stated 
many times that they want to keep BACN around after operations cease in 
Afghanistan. What is the plan to fund BACN once OCO funding has been 
removed? Will it be made a program of record, or will the Combatant 
Commanders lose another capability?
    Admiral Winnefeld. The Battlefield Airborne Communications Node 
(BACN) is comprised of a fleet of EQ-4B and E-11A airframes and 
operations are exclusively funded with Overseas Contingency Operations 
(OCO) resources. At this time, BACN is not a base-funded program of 
record and the Department intends to divest the EQ-4B and E-11A fleets 
if OCO funding is not available. Air Combat Command has evaluated 
options to create an E-11A BACN program of record, post conflict; 
however, sufficient funding is unavailable.
    Ms. Tsongas. I am concerned that if we continue to fund every new 
operation with OCO, then we will never be able to end what was meant to 
be a ``temporary'' funding stream. Can you explain how DOD plans to 
transition to solely a base budget?
    Secretary McCord. The base budget of the Department provides funds 
to organize, train, equip, and maintain the full spectrum readiness of 
the joint force. Other appropriations, such as the current OCO budgets, 
have historically been used to fund unforeseen operations, activities, 
contingencies, emergencies, and equipment reset beyond the scope of our 
normal base budget. As the demand for the use of military force remains 
high based on increasing global unrest coupled with major decreases in 
our budgets, the Department will likely continue to need contingency 
funding in some form of a supplemental for those activities over and 
above a normal base budget.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. There are some people that believe the Joint 
Improvised Explosive Device Defeat Organization (JIEDDO) should ceased 
to exist as the war in Afghanistan comes to a close. Others feel that 
JIEDDO should remain because the IED problem continues to grow 
worldwide and the IED is an ever-growing and ever-existing threat. What 
factors were looked at to draw the conclusion of reducing JIEDDO's 
personnel by 3,000 and their funds by 60 percent? What impact will this 
have to available capabilities to the combatant commanders?
    Secretary Work. The Department of Defense (DOD) recognizes the 
importance of transitioning the Joint Improvised Explosive Device 
Defeat Organization (JIEDDO) to an enduring joint organization. While 
maintaining key capabilities for support to Combatant Commands, the 
Department made the decision to reduce the size and budget for JIEDDO 
based on change of mission and downsizing in Afghanistan, and in 
response to the fiscal pressures on DOD. The decision was made to 
reduce JIEDDO to 975 personnel in Fiscal Year (FY) 2015 and transition 
to a base capacity by FY 2017. The President's Budget (PB) for FY 2015 
includes the base budget necessary for 400 personnel and additional 
resources are provided though Overseas Contingency Operations (OCO) 
appropriations. The reduction of JIEDDO personnel and reduction of its 
funding was reviewed, in part, through the Deputy Secretary of Defense 
(DSD) Deputy's Management Action Group (DMAG) process with reviews by 
the DSD conducted March 30, 2012, July 3, 2012, and July 17, 2013. At 
the July 2013, DMAG, the DSD made the decision to transition the 
essential capabilities of JIEDDO to an integrated joint organization 
based on the following factors that enable tactical responsiveness and 
anticipatory acquisition to prepare for and react to battlefield 
surprise in counter-terrorism, counter-insurgency, and other related 
mission areas to include counter-IED.
    In preparation for the 2013 DMAG, the staffing level of JIEDDO at 
the beginning of a two year transition period was determined by the 
Director, JIEDDO, presented at the DMAG, and approved by the Deputy 
Secretary of Defense. In November 2013, the DSD clarified direction to 
ensure that JIEDDO, as it transitions, sustains its counter-IED 
capability in support of U.S. forces while operations in Afghanistan 
continue. The Department's processes to determine and request OCO funds 
were used for additional FY 2015 funding for JIEDDO, as it transitions, 
to continue the counter-IED support of U.S. forces while operations in 
Afghanistan and other areas around the world continue. The additional 
OCO funding of $379 million is for support that is beyond the 
capability that would be available if the funding were to be limited to 
the 400 personnel supported through the PB 2015 request. This will 
enable JIEDDO to adequately support the counter-IED requirements of the 
Combatant Commanders, with some limitations. Going forward, within the 
capacity of the projected base budget funding for 400 personnel and, to 
the extent that OCO funds are requested and appropriate, the integrated 
joint organization support, including counter IED efforts, to Combatant 
Commanders would continue at congressionally approved levels.
    Mr. Shuster. The Department of Defense and the State Department 
have $1.5 billion that could be used for the Syrian Regional 
Stabilization Initiative. What will the Counterterrorism Partnership 
Fund provide to support partners' counterterrorism efforts in the 
Middle East and Africa? How much does the United States currently spend 
on counterterrorism in those regions, and to what effect?
    Secretary Work. A portion of the amount requested for the 
Counterterrorism Partnership Fund (CTPF) is intended to be used to 
build the operational and institutional capacity of partner nations to 
conduct counterterrorism operations. It is envisioned that these 
programs will be conducted using existing building partner capacity 
(BPC) authorities such as section 1206 of the National Defense 
Authorization Act (NDAA) for Fiscal Year (FY) 2006, as amended, section 
1207 of the NDAA for FY 2012 (``Global Security Contingency Fund'' or 
``GSCF''), as amended, and the Ministry of Defense Advisors (MoDA) 
global authority granted in the FY 2012 NDAA; or operational 
authorities such as Section 1208 of the NDAA for FY 2005 (Public Law 
108-375), as amended. Examples of programs conducted under those 
authorities could include:
    <bullet>  Enhance partner border, maritime security and 
expeditionary operations capacity;
    <bullet>  Enhance partner logistical capabilities, including 
transportation and engineering capabilities;
    <bullet>  Enhance partner defense institutions, including in areas 
such as resource management, logistics and maintenance, and planning; 
and
    <bullet>  Provide support to partner forces engaged in supporting 
or facilitating ongoing military operations by U.S. special operations 
forces (SOF) to combat terrorism.
    In FY 2014 DOD is undertaking, or expects to undertake, the 
following counterterrorism programs:
    1) Under the authority granted in Section 1208 of the NDAA for FY 
2005 (Public Law 108-375), as amended, DOD expects to spend $28.5M for 
partners' support of counterterrorism efforts in the Middle East and 
Africa. These funds are used to provide support to partner forces who 
are engaged in supporting or facilitating ongoing military operations 
by U.S. Special Operations Forces (SOF) to combat terrorism.
    2) Under the authority granted in Section 1207 of the NDAA for FY 
2012 (Public Law 112-81), as amended, DOD and the State Department 
expect to spend $7.75M to train and equip Libyan special operations 
forces to counter violent extremist organizations and better secure 
Libya's borders against the illicit flow of weapons and foreign 
fighters. The State Department and DOD are also working to redesign a 
$14.89M GSCF program to improve Libyan border security adapted to 
accommodate the degraded political and security situation in Libya. 
Finally, DOD and the State Department recently notified a $40M GSCF 
program of assistance for Chad, Cameroon, Niger, and Nigeria intended 
to counter Boko Haram.
    3) Under the authority granted in Section 1206 of the NDAA for FY 
2006 (Public Law 109-63), as amended, DOD expects to spend $191.07M to 
build the capacity of national military forces, maritime security 
forces, and/or security forces in Middle East and African nations to 
conduct counterterrorism operations in FY 2014. As of 16 September 
2014, DOD has notified, but Congress has not approved, an additional 
$4.6M for Tunisia. These figures do not include costs associated with 
transportation, pre-shipment consolidation, or human rights vetting and 
training.
    4) Under the authority granted in Section 2011 of Title X, United 
States Code, DOD expects to spend $19.4M in support of enhancing U.S. 
SOF capability in foreign internal defense and unconventional warfare 
by training with partner nation forces in the Middle East and Africa. 
Although these funds are not explicitly used for training partner 
nations in counter-terrorism, the mission-essential tasks that U.S. SOF 
and partner nations use for interoperability training may be 
subsequently used to execute counter-terrorism missions.
    5) Under the authority granted in Section 2249c of Title X, United 
States Code, DOD expects to spend $14.9M for partner nations in the 
Middle East and Africa in support of targeted, non-lethal, combating 
terrorism education and training for mid- to senior-level international 
military officers, ministry of defense civilians, and security 
officials. These programs are designed to address key CbT challenges 
within partner nations through a tailored program of activities to meet 
specific Combatant Command objectives.
    6) Under the authority granted in Section 1203(d) (1) of the NDAA 
for FY 2012 (Public Law 112-239), DOD expects to spend $75M in FY 2014 
to enhance the capacity of the national military forces of Burundi, 
Djibouti, Ethiopia, and Uganda participating in the African Union 
Mission in Somalia to conduct counterterrorism operations against al 
Qaeda, al Qaeda affiliates, and al Shabaab.
    7) Under the authority granted in Section 1022 of the NDAA for 
FY2004 (Public Law 108-136), as amended, DOD expects to spend $2.8M in 
support of law enforcement to identify and disrupt terrorist financial 
flows, and to implement BPC activities.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. Looking at the President's OCO request, of the $4 
billion requested for the Syria Regional Stabilization Initiative, $500 
million has been ``vetted for elements of the Syrian opposition.'' How 
has the Administration identified what groups qualify as an 
``opposition element''?
    Secretary Work. The moderate Syrian opposition is not a monolithic 
group. The moderate Syrian opposition consists of a variety of groups, 
such as the Free Syrian Army, as well as other groups and individuals 
that also would undergo a deliberate vetting process. We anticipate 
that the train-and-equip program, which would be funded by the 
requested $500 million, will attract moderate opposition forces 
currently engaged in combat operations, but also volunteers that have 
not yet affiliated with a specific element of the moderate opposition.
    Mr. Coffman. Can you explain why the percentage of reduction for 
the OCO request from FY14 to FY15 (27.7%) was not more proportional to 
the percentage of troop reduction in Afghanistan for FY15 (74.7%)?
    Secretary Work. The Department's Overseas Contingency Operations 
(OCO) request supports direct and indirect costs associated with combat 
operations within Afghanistan. Although the number of U.S. troops in 
Afghanistan will decline over the course of FY 2015, some war-related 
support costs will not decline as quickly as the forces themselves. In 
addition to providing combat support activities, the OCO request also 
supports In-Theater Support Activities (to include Intelligence, 
Surveillance, and Reconnaissance), Afghan Security Forces training and 
equipping, Coalition Support, and costs associated with returning the 
Military Services to the United States and retrograding their 
equipment.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. KILMER
    Mr. Kilmer. I understand that the Navy has assumed a liability of 
approximately $3 billion related to overseas contingency operations and 
that some 89 ships require dry-docking maintenance availabilities to 
correct the backlog of maintenance accrued during 1999 and 2009. If you 
could please describe the actions the Department has taken to ensure an 
appropriate level of staff and equipment at our public shipyards to 
conduct these resets. Additionally, please describe what actions the 
Department has taken to ensure that the private sector is ready to 
handle this increased level of effort.
    Secretary Work. The Navy estimates that the backlog of maintenance 
on its ships will take approximately $1.3 billion over the Future Years 
Defense Program to correct. This backlog is specifically on surface 
ships, which conduct the majority of their depot-level maintenance 
availabilities in the private sector. As a result, there is no 
projected impact on the public shipyards.
    The impact to the private sector is minimized by conducting reset 
work during normally scheduled availabilities. Navy conducts detailed 
pre-availability inspections in an effort to accurately scope the work 
as early as possible. This helps the Navy and industry plan for the 
necessary manpower and resources to execute the desired workload.
    Mr. Kilmer. As I am sure you are aware, this committee has taken a 
keen interest in the acquisition process and activities of the 
Department of Defense. Looking at the OCO budget, I am interested in 
understanding how much of the requested funds would be used for the 
acquisition of services not related to the maintenance and or 
restoration of combat equipment that was destroyed, damaged, stressed, 
or worn out beyond economic repair and how this differs from the FY 14 
request? I am concerned with the stability of ongoing service contracts 
that are paid for with OCO funds.
    Secretary McCord. The FY 2015 Overseas Contingency Operations (OCO) 
request includes approximately $4.0 billion in contract services not 
related to the maintenance and repair of combat equipment. This 
represents a decrease of $4.6 billion from the FY 2014 enacted levels. 
The majority of these costs support ongoing in-theater and CONUS 
operations providing contractor logistic support and base operations/
facilities support. These contract services numbers do not include 
contracts in Afghanistan as these costs will continue to decline, and 
will not be enduring as the number of deployed service members continue 
to decrease.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
